U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                         Review of the Bureau of
                     Alcohol, Tobacco, Firearms and
                     Explosives’ Disciplinary System
                                      September 2005




                                      I-2005-009
                                EXECUTIVE DIGEST


INTRODUCTION

       The Department of Justice’s (Department) Office of the Inspector
General (OIG) conducted this review to assess the Bureau of Alcohol,
Tobacco, Firearms and Explosives’ (ATF) disciplinary system. This is the
fourth in a series of OIG reviews of the Department components’ disciplinary
systems. 1 In this review, we examined the consistency and reasonableness
of the reporting and investigation of alleged misconduct, adjudication of
misconduct cases, and implementation of the discipline imposed by the
ATF. We also reviewed the timeliness of the ATF’s disciplinary system for
processing misconduct cases. We examined the case files for 230 closed
ATF employee misconduct cases from fiscal year (FY) 2002 through
FY 2004, reviewed discipline-related policies and procedures, interviewed
ATF officials, and surveyed 860 ATF employees. Finally, at the request of
the ATF, we also evaluated a pilot project intended to improve the
adjudication of misconduct cases.

       All ATF employees are required to promptly report any allegations or
information concerning misconduct to the ATF Investigations Division. After
the alleged misconduct is reported, the ATF uses one of two separate
processes to investigate and adjudicate the allegation − a centralized process
intended to address more serious misconduct and a decentralized process
intended only for minor misconduct. 2 In the centralized process, allegations
of misconduct are investigated by the ATF Investigations Division or the
OIG, which document the results in a formal report of investigation. The
report of investigation is reviewed by the ATF’s Professional Review Board,
which proposes a letter of clearance or discipline consistent with discipline
proposed in similar past cases. Since June 2003, the ATF has been
operating a pilot project, under the centralized process, in which final
decisions on proposed discipline have been made by the “Bureau Deciding

        1 The three previous OIG reports are Review of the Federal Bureau of Prisons’

Disciplinary System, I-2004-008, September 2004; Review of the Drug Enforcement
Administration’s Disciplinary System, I-2004-002, January 2004; and Review of the United
States Marshals Service Discipline Process, I-2001-011, September 2001.

       2  Although the ATF does not define serious or minor misconduct, based on ATF
Orders 2130.1, 2750.1C, and 8610.1A, we understand more serious misconduct to include
theft of government property, misconduct related to attendance or leave (such as false
statements or fraud), and misuse of government-owned vehicles. In contrast, minor
misconduct includes tardiness for work, insubordination, and failure to complete work
assignments. The ATF refers to more serious misconduct as “integrity issues.”



U.S. Department of Justice                                                           i
Office of the Inspector General
Evaluation and Inspections Division
Official.” Prior to June 2003, the Professional Review Board proposed
discipline and local managers made the final decisions. Of the
230 disciplinary case files we reviewed, 154 were investigated and
adjudicated under the centralized process (77 by the Bureau Deciding
Official and 77 by local management officials).

      In contrast to the centralized process for more serious misconduct,
minor misconduct is handled through the decentralized process in which
local managers are responsible for investigating and adjudicating allegations
of misconduct. The ATF’s Employee Labor Relations Team (ELRT) provides
support and advice to the local managers in these cases. Of the
230 disciplinary case files we reviewed, 76 were investigated and
adjudicated under the decentralized process.

      Under both processes, any discipline that involves suspension,
reduction in pay, or removal is documented on an Office of Personnel
Management Standard Form-50 (SF-50) that is permanently retained in the
employee's official personnel folder.

RESULTS IN BRIEF

       Our review found deficiencies in the reporting, investigation,
adjudication, and implementation of the ATF’s disciplinary system that
reduce its ability to ensure that misconduct is consistently, reasonably, and
timely addressed. 3 Specifically, we found that misconduct was not always
properly reported, and misconduct investigations handled in the
decentralized process were not thorough. We also found that errors in the
ATF’s disciplinary database reduced the reliability of the database for use in
identifying prior discipline imposed in similar cases. In some cases, the ATF
could not demonstrate that the discipline imposed had been implemented.
Further, the ATF has not established standards to measure the performance
of the timeliness of disciplinary actions. Even so, the average time the ATF
took to investigate and adjudicate misconduct cases was within the range of
the processing times for the other three Department components we have
reviewed. Our findings are discussed in greater detail below.

        3 We defined timeliness as whether policies and procedures in place ensured timely

disciplinary results and how often the disciplinary system met formally established time
and performance standards. We defined consistency as whether the policies and
procedures in place were followed; whether the disciplinary system processed similar
misconduct cases using uniform standards; and whether the disciplinary system imposed
uniform penalties for similar misconduct across the ATF and within the same location. We
defined reasonableness as how thorough the investigations and adjudications appeared;
how objective and independent the process for investigating and adjudicating misconduct
cases appeared; and how logical or appropriate the penalties for the misconduct appeared.



U.S. Department of Justice                                                           ii
Office of the Inspector General
Evaluation and Inspections Division
Reporting and Investigation of Misconduct Allegations

      We found that ATF employees did not consistently report allegations
of misconduct to the ATF Investigations Division, as required by ATF
Order 2130.1. We also found that the ATF did not consistently report
allegations of misconduct to the OIG, as required. In response to our
employee survey, 75 out of 345 respondents stated that they had observed
misconduct that they did not report to the Investigations Division or the
OIG. We also found that in 59 of 230 disciplinary case files we reviewed, the
allegations of misconduct were not reported to the ATF Investigations
Division. Instead, these allegations of misconduct were reported to local
managers or ELRT staff.

      In addition, of the 230 case files we reviewed, 47 misconduct
allegations were not reported to the OIG for review as required. Six of the
cases that were not reported to the OIG involved allegations of serious
misconduct, but these cases were investigated and adjudicated through the
decentralized process without the benefit of a review by the ATF
Investigations Division or the OIG.

       We also found that the ATF did not thoroughly investigate each
allegation of misconduct. Our review of the case files for the 76 cases
handled under the decentralized process found no evidence of any
investigation having been conducted in 16 of the files. Documentation in
the remaining 60 files appeared inadequate to ensure a reasonable
investigative result. An ELRT specialist we interviewed stated that there are
no standards or guidance for the decentralized investigative process. In
contrast, all of the 154 misconduct allegations investigated under the
centralized process resulted in formal reports of investigation. We reviewed
17 of these reports and concluded that these investigations were thorough
and complete.

Adjudication of Misconduct Cases

      We found that the ATF did not reasonably and consistently adjudicate
misconduct cases. Under the decentralized process, a local manager can
propose and decide the penalty for the same case. 4 This occurred in 13 of
the 76 decentralized cases we examined. We believe that allowing the same
local manager to propose the discipline and decide the penalty for a case
removes the checks and balances necessary to ensure reasonable results.


       4   This can only occur for cases resulting in discipline of a 14-day suspension or less.



U.S. Department of Justice                                                                iii
Office of the Inspector General
Evaluation and Inspections Division
      The ATF has not established a time limit on the consideration of prior
misconduct in adjudicating discipline cases. This results in inconsistent
consideration of prior misconduct to adjudicate the penalty for new
misconduct. For example, in one case, the proposing official considered
misconduct that resulted in discipline 6 years prior to the current
misconduct. In another case, the proposing official did not consider prior
misconduct that resulted in discipline less than 2 years before the new
misconduct. In contrast, each of the other three Department components
whose disciplinary systems we reviewed have established time periods to
ensure that the consideration of prior misconduct is consistent.

       We also identified errors in the ATF's disciplinary database that
reduced the ATF’s ability to identify accurately discipline imposed in similar
prior cases. The ELRT and the Professional Review Board rely on the
database to identify discipline imposed in similar prior cases to ensure
consistency. However, we found that in 52 of 230 disciplinary case files we
reviewed, the charge or discipline recorded in the case file (specifically in the
proposal and the decision letters) did not match the charge or discipline
recorded in the ATF’s disciplinary database. As a result, the data on prior
misconduct cases used as part of the ATF’s process for determining
proposed discipline was not always complete or accurate. Consequently,
the ATF could not ensure the consistency or reasonableness of discipline
proposed for similar misconduct.

       We also found that the ATF incorrectly categorized misconduct in
some cases, which resulted in inconsistent disciplinary actions. In 31 of the
230 disciplinary case files we reviewed, an offense for which a specific
charge was available (such as misuse of a government vehicle or granting
prohibited persons access to firearms) was instead labeled as the non-
specific offense "poor judgment." In addition, the ATF has no guidance to
establish the specific types of misconduct that may be included in the broad
charge of poor judgment. Because less stringent penalties were imposed for
the general offense category of “poor judgment,” we found that in some
cases individuals who committed similar misconduct received inconsistent
discipline.

      The deciding official has the authority to mitigate (reduce) the
proposed discipline based on the applicable Douglas Factors or information
in the response to the proposed discipline provided by the employee. 5 We

       5 The 12 Douglas Factors can be used to mitigate a proposed penalty and include
information such as the employee’s past disciplinary record and the nature and
seriousness of the offense. For example, a long-term employee with no prior disciplinary
history and an excellent performance record may receive a mitigated penalty, while an
                                                                                  (Cont’d.)

U.S. Department of Justice                                                           iv
Office of the Inspector General
Evaluation and Inspections Division
found that the ATF’s deciding officials mitigated proposed discipline in 38 of
the 230 disciplinary case files we reviewed. However, in 21 of those
38 mitigations, the deciding official did not adequately detail the reasons for
mitigating the proposed discipline in the decision letter, as required. This
occurred under both the centralized process (18 cases) and the
decentralized process (3 cases). Because the deciding official did not
adequately document the reasons to mitigate the proposed discipline, we
could not assess whether the reductions were reasonable.

Implementation of Discipline Imposed

       The ATF could not demonstrate that the discipline imposed in the
decision letter had been carried out in every case. Discipline that includes
suspension, reduction in pay, or removal ordered by a local deciding official
or by the Bureau Deciding Official is implemented with an SF-50 that is
permanently retained in the employee's official personnel folder. However,
the ATF could not provide the required SF-50 in 14 cases, involving
12 suspensions and 2 removals. Consequently, the ATF could not
demonstrate that the employees had been disciplined or that the employees’
pay had been withheld for the 12 suspension cases. Although the ATF did
not provide SF-50s for the two cases involving removals, we subsequently
verified, with the assistance of an ATF official, that the two employees had
been removed from service.

Timeliness of the ATF’s Disciplinary System

      Overall, the ATF has not established timeliness standards or goals to
measure the performance of its disciplinary system. However, we found
that the average time the ATF took to process misconduct cases was within
the range of the average time for the other three Department components
whose disciplinary systems we have reviewed. The ATF averaged 277 days
to investigate and adjudicate allegations of misconduct. In comparison, the
Federal Bureau of Prisons averaged 198 days and the Drug Enforcement
Administration averaged 334 days.

Review of the Bureau Deciding Official Pilot Project

       At the request of the ATF, we also reviewed the pilot project it has
operated since June 2003 to assess whether using a single Bureau Deciding
Official improved the consistency, reasonableness, and timeliness of
disciplinary decisions under the centralized process. We concluded that

employee committing the same offense who has been disciplined previously and has a poor
work record would not. See Appendix I for a description of the Douglas Factors.



U.S. Department of Justice                                                         v
Office of the Inspector General
Evaluation and Inspections Division
discipline imposed by the Bureau Deciding Official was more consistent,
reasonable, and timely than the discipline imposed by local managers.
While the Bureau Deciding Official ensured consistency with his prior
decisions in all similar ATF cases, local managers were required only to
ensure consistency with their own prior decisions, not with decisions made
by other numerous managers located throughout the ATF. Thus, we found
that the Bureau Deciding Official (one individual) is more likely to produce
consistent decisions.

       Additionally, we found that the Bureau Deciding Official’s decisions
were more reasonable and timely. The Bureau Deciding Official more
thoroughly documented his reasons for mitigating proposed penalties. Prior
to the pilot project, local mangers reduced the proposed penalty in 15 of
77 cases without adequately documenting the reasons for the mitigation in
their decision letters. The Bureau Deciding Official reduced the proposed
penalty in only 3 of 77 cases without adequate explanation in the decision
letter. The Bureau Deciding Official also adjudicated his cases more
quickly, averaging 63 days from proposal to decision, compared to the local
managers’ average of 111 days.

CONCLUSION AND RECOMMENDATIONS

       We concluded that improvements are needed to address the problems
we found in the ATF’s disciplinary system. The ATF did not ensure that all
misconduct was properly reported and thoroughly investigated. The
documentation and tracking of misconduct cases was incomplete and
inconsistent, which prevented the ATF from ensuring that consistent
penalties were proposed. In addition, the decision to mitigate proposed
discipline was not always sufficiently justified, and the implementation of
penalties for misconduct was not always documented. Because of these
deficiencies, we concluded that the ATF system is less effective than it
should be for ensuring that discipline is consistent and reasonable.

      Although the ATF lacks timeliness goals or standards to measure the
discipline system’s performance, the average time the ATF took to
investigate and adjudicate misconduct cases was within the range of the
average processing times of other Department components we have
reviewed.

      Based on our review of the ATF’s pilot project using a Bureau
Deciding Official, we believe that the use of the single official would produce
more consistent, reasonable, and timely disciplinary results, and that
establishment of a permanent Bureau Deciding Official is warranted.



U.S. Department of Justice                                                vi
Office of the Inspector General
Evaluation and Inspections Division
     To help improve the ATF’s disciplinary system, we make nine
recommendations. We recommend that the ATF:

     1. Remind all employees on an annual basis, particularly local
        managers and ELRT staff, that any allegation or information
        concerning misconduct must be promptly reported to the ATF
        Investigations Division or the OIG.

     2. Require that all investigations of alleged misconduct be conducted
        or reviewed by the ATF Investigations Division before the
        misconduct case can be adjudicated.

     3. Properly categorize misconduct to accurately reflect the underlying
        misconduct, rather than applying generic charges such as “poor
        judgment.”

     4. Establish data entry and quality control standards and procedures
        for all information entered in its automated disciplinary database
        and for all documentation collected and maintained in the
        disciplinary case files.

     5. Require that each decision letter that reduces the proposed
        discipline adequately document the reasons for the mitigation.

     6. Establish a time period for how far back prior discipline should be
        considered.

     7. Prohibit the same individual from serving as the proposing and
        deciding official for the same misconduct case.

     8. Establish policies and procedures, including management reviews,
        to ensure that discipline imposed is consistently implemented.

     9. Establish time standards and performance measures for the
        investigation and adjudication phases for the centralized and
        decentralized disciplinary processes.




U.S. Department of Justice                                               vii
Office of the Inspector General
Evaluation and Inspections Division
                                 TABLE OF CONTENTS



EXECUTIVE DIGEST .............................................................................i

BACKGROUND .....................................................................................1

PURPOSE, SCOPE, AND METHODOLOGY............................................ 17

RESULTS OF THE REVIEW................................................................. 21

  Reporting and Investigation of Misconduct Allegations........................... 21

  Adjudication of Misconduct Cases ......................................................... 28

  Implementation of Discipline Imposed ................................................... 34

  Timeliness of the ATF’s Disciplinary System .......................................... 35

  Review of the Bureau Deciding Official Pilot Project ............................... 40

CONCLUSION AND RECOMMENDATIONS ........................................... 43

APPENDIX I: Douglas Factors............................................................ 45

APPENDIX II: ATF’s Response to Draft Report................................... 47

APPENDIX III: OIG Analysis of ATF’s Response ................................. 52




U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division
                                      BACKGROUND


       A federal agency may impose discipline when an employee’s
misconduct interferes with the agency’s ability to carry out its mission.
Laws and regulations governing the discipline of federal employees are
found in the Civil Service Reform Act of 1978; Title 5, Code of Federal
Regulations, Part 752, Adverse Actions; and 5 United States Code, Chapter
75, Section 7501-7504, 7511-7514. These laws and regulations establish
the legal framework for federal agencies to address employee misconduct
through disciplinary actions (penalties ranging from letters of reprimand to
suspensions of 14 days and less) and adverse actions (suspensions of
greater than 14 days, demotions, and removals). 6 In addition to formal
disciplinary action, agencies may also impose informal discipline, such as
letters of caution.
      Agencies have discretion in determining disciplinary penalties; the
only requirement is that the penalty be reasonable. To help determine
reasonableness, in a 1981 decision the Merit Systems Protection Board
established 12 factors, known as the Douglas Factors, for agency officials to
consider when determining disciplinary actions. 7 The Douglas Factors
include information such as the employee’s past disciplinary record and the
nature and seriousness of the offense. The Douglas Factors may be used to
mitigate (reduce) a proposed penalty. For example, a long-term employee
with no prior disciplinary history and an excellent performance record may
receive a mitigated penalty, while another employee committing the same
offense who has been disciplined previously and has a poor work record
would not. See Appendix I for a description of the Douglas Factors.




       6  In the Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), letters of
admonishment and reprimand or any suspension of 14 days or less are defined as
disciplinary actions. Furloughs of 30 days, reductions in pay or grade, suspensions more
than 14 days, or removals are defined as adverse actions.

        7 The Merit Systems Protection Board is an independent, quasi-judicial agency in

the executive branch that was established by Reorganization Plan No. 2 of 1978, which was
codified by the Civil Service Reform Act of 1978, Public Law 95-454. The Civil Service
Reform Act which became effective January 11, 1979, replaced the Civil Service
Commission with three independent agencies: (1) the Office of Personnel Management,
which manages the federal work force; (2) the Federal Labor Relations Authority, which
oversees federal labor-management relations; and (3) the Merit Systems Protection Board.
The Merit Systems Protection Board assumed the employee appeals function of the Civil
Service Commission and was given new responsibilities to perform merit systems studies
and to review the significant actions of the Office of Personnel Management.



U.S. Department of Justice                                                           1
Office of the Inspector General
Evaluation and Inspections Division
Overview of the ATF

      The ATF’s mission is “to conduct criminal investigations, regulate the
firearms and explosives industries, and assist other law enforcement
agencies” as part of the U.S. government’s effort to counter terrorism,
reduce violent crime, and protect the public. 8 To support its mission, the
ATF employs approximately 5,000 staff, each assigned to one of the ATF’s
seven directorates. Field Operations is the largest directorate and has
primary responsibility for administering the ATF’s 23 Field Divisions. 9

Overview of the ATF’s Disciplinary System
      The ATF currently uses two separate processes to investigate and
adjudicate employee misconduct cases. The first is a centralized process,
administered by headquarters officials. This process routes relatively
serious misconduct cases through the Investigations Division, the
Professional Review Board, and the “Bureau Deciding Official” for
investigation and adjudication. The second process is decentralized in
which local managers investigate and adjudicate minor misconduct cases,
with the assistance of the Employee Labor Relations Team (ELRT) located in
headquarters.

      Prior to June 2003, the ATF relied on local managers to decide
discipline for misconduct cases in the centralized process. Since June
2003, the ATF has been testing a pilot project in which a single Bureau
Deciding Official decides discipline for all misconduct cases in the
centralized process. The ATF modeled this disciplinary process on the Drug
Enforcement Administration’s centralized process for handling employee
misconduct cases. 10 The use of local deciding officials in the centralized
process has been temporarily suspended until ATF management determines
whether it will formally implement the Bureau Deciding Official pilot project.
Figure 1 provides a general overview of the ATF’s disciplinary system.




       8   ATF Strategic Plan, Fiscal Years 2004-2009.

       9 Effective January 24, 2003, the ATF was transferred from the Department of
Treasury to the Department of Justice. The ATF was established as a separate component
within the Department of Justice pursuant to Title XI of the Homeland Security Act of
2002, Public Law 107-296, on January 17, 2003.

       10   See Internal ATF Memorandum, “Bureau Deciding Official,” June 2, 2003.



U.S. Department of Justice                                                           2
Office of the Inspector General
Evaluation and Inspections Division
                    Figure 1: Official ATF Disciplinary System


                                                        START
                                          Allegation of Misconduct Reported
                                             to the Investigations Division



                                              ID Reports Allegation to OIG



             OIG Investigates &         Yes             Open OIG
             Compiles Report of                       Investigation?
               Investigation

                                                                No

              ID Investigates &         Yes              Open ID             No       ID Refers Case to
             Compiles Report of                       Investigation?                  Local Manager for
                Investigation                                                            Resolution



         All ID & OIG Investigations
           Sent to the Professional                                               ELRT Advises Manager on
                Review Board                                                       Collection of Supporting
                                                                                       Documentation

                                           Prior to
               PRB Proposes               June 2003
           Discipline or Clearance                                                 Local Manager Proposes
                                                                                    Discipline with ELRT
            June 2003                                                                       Input
            to Present
              Bureau Deciding                     Local Manager
              Official Decides                       Decides                        Local Management
             Discipline or Issues                 Discipline with                  Decides Discipline with
                 Clearance                         ELRT Input                           ELRT Input




       PRB Specialist or ELRT Specialist Creates Official Discipline File & Updates Disciplinary Database




                                                       LEGEND
                  Centralized Process                       ID – Investigations Division
                                                            OIG – Office of the Inspector General
                  Centralized Process Prior
                                                            PRB – Professional Review Board
                  to June 2003
                                                            BDO – Bureau Deciding Official
                  Decentralized Process                     ELRT – Employee Labor Relations Team




 Source: Based on ATF Orders and interviews with ATF officials



U.S. Department of Justice                                                                                    3
Office of the Inspector General
Evaluation and Inspections Division
      The Reporting of Misconduct Allegations. ATF Order 2130.1
requires that any allegation or information that the ATF’s standards or rules
of conduct have been violated must be promptly reported by the employee
having the information to the ATF Investigations Division. The Order also
requires that any questions about whether the information or allegation is a
matter for administrative handling or investigation will be resolved by
discussion between the appropriate administrative official and the ATF
Investigations Division.

      In fiscal year (FY) 2004, the ATF Investigations Division received and
reviewed 781 misconduct allegations; 86 resulted in ATF Investigations
Division investigations. The ATF Investigations Division typically receives
misconduct allegations via telephone or e-mail. The allegations are recorded
on incident reports (ATF Form 8600.39). These incident reports summarize
and document such information as when the allegation was reported, who
reported the allegation, the circumstances surrounding the allegation, and
the investigator recording the information. Information from the incident
reports are entered into the ATF Investigations Division’s data management
system.

      The ATF is required to report allegations of misconduct to the
Department of Justice’s (Department) Office of the Inspector General (OIG).
The ATF Investigations Division is required to report any allegation of
serious misconduct to the OIG immediately and subsequently provide the
related incident report. The ATF also informs the OIG of misconduct
allegations not categorized as serious but, by mutual agreement, does so
when an OIG Special Agent visits the ATF Investigations Division’s offices,
usually on a weekly basis. The OIG Special Agent collects, reviews, and
discusses any misconduct allegations or issues relating to recent incident
reports. After reviewing an incident report, the OIG determines whether an
allegation requires (1) an OIG investigation; (2) an OIG review of the
completed ATF investigation; or (3) no further involvement by the OIG.

      If the OIG determines it will not investigate the allegation, the ATF
Investigations Division’s Special Agent in Charge reviews the allegation and
determines whether the case will be (1) investigated by the Investigations
Division; (2) referred to local management for an investigation that will be
monitored by the Investigations Division; or (3) labeled “no action,” requiring
no further involvement by the Investigations Division.

      The misconduct allegations investigated by the OIG or the ATF
Investigations Division generally are the more serious allegations. Those
offenses include embezzlement; attempted bribery; acceptance of bribes,


U.S. Department of Justice                                                4
Office of the Inspector General
Evaluation and Inspections Division
gifts, or gratuities; extortion; fraud against the government or conspiracy to
commit the foregoing offense; lying under oath; refusal to cooperate with an
administrative or other inquiry when required to do so by law or regulation;
falsification of criminal investigative reports; theft of government funds or
property; excessive tardiness or other misconduct related to attendance or
leave; criminal, dishonest, infamous, or notoriously disgraceful conduct;
refusal to furnish testimony; misuse of a government-owned vehicle; abuse
of narcotics or other controlled substances; and discourteous conduct to the
public confirmed by an immediate supervisor’s report of four such instances
within any 1-year period or any other pattern of discourteous conduct.

      When the ATF Investigations Division determines allegations are not
serious, it refers them to local management for investigation or labels them
“no action.” According to ATF Order 8610.1A, “certain minor infractions of
the rules of conduct may be investigated by the appropriate [local ATF]
manager.” Minor misconduct allegations include tardiness for work,
insubordination, and failure to complete work assignments. The label “no
action” allows local managers to handle the allegation in a manner that they
believe is appropriate. In these cases, local managers may choose not to
pursue the allegation (for example, if the allegation does not provide enough
information to warrant investigation) or may contact the ELRT for advice
and assistance as they proceed with the investigation and adjudication
under the decentralized process.

The Centralized Process

       The centralized disciplinary process is administered by officials and
staff at ATF Headquarters. The centralized process currently involves three
headquarters entities: (1) the ATF Investigations Division, (2) the
Professional Review Board, and (3) the Bureau Deciding Official.

      The ATF Investigations Division investigates the misconduct
allegation and compiles the investigations report. The Investigations
Division is located within the Office of Professional Responsibility and
Security Operations. The Investigations Division is responsible for
investigating, tracking, and reporting all allegations of misconduct involving
ATF employees, as set forth in ATF Order 8610.1A. The Investigations
Division’s other responsibilities include tracking and investigating accidents
involving government-owned vehicles and shooting incidents involving ATF
employees. In addition to the Special Agent in Charge and the Assistant
Special Agent in Charge, at the time of this review, the Investigations




U.S. Department of Justice                                               5
Office of the Inspector General
Evaluation and Inspections Division
Division had a staff of approximately 12 investigators to conduct internal
investigations. 11 Staffing fluctuates primarily based on caseload.

       The Investigations Division opened 127 misconduct investigations in
FY 2002, 91 in FY 2003, and 86 in FY 2004.
Workload, case complexity (with the more complex          Centralized
cases typically being assigned to more senior                 Process
investigators), and seriousness of the allegation
influence the prioritization and internal                   ID Investigates &
                                                         Compiles Investigative
assignment of investigations. The Special Agent                   Report

in Charge monitors the progress of the
Investigations Division’s open investigations by       All ID & OIG Investigations
                                                         Sent to the Professional
conducting monthly briefings with the                         Review Board

investigators assigned and recording the case
status in a management control log. Allegations               PRB Proposes
referred to local management for monitored               Discipline or Clearance

investigation are tracked separately.                     June 2003
                                                                     to Present

      ATF Order 8610.1A, “Internal and Other
                                                                       Bureau Deciding
                                                               Official Decides
Investigations,” describes requirements for the              Discipline or Issues
                                                                   Clearance
Investigations Division’s misconduct
investigations. Each investigation must result in
a case file with a report on the investigation and         PRB Specialist Creates
relevant exhibits. Before an investigation is             Official Discipline File &
closed, the case file contents are reviewed and
                                                            Updates Disciplinary
                                                                   Database
approved by the Special Agent in Charge and the
Assistant Director of the Office of Professional
Responsibility and Security Operations.
Incomplete investigations are returned to the investigator for additional
investigation and documentation. Once approved, the completed case file is
forwarded to the Professional Review Board. At this point, the centralized
process’s investigation phase ends and the adjudicative phase begins.

       The Professional Review Board proposes discipline or clearance.
On August 1, 1995, ATF Brief 2750.1 officially established the Professional
Review Board “to ensure that allegations of employee misconduct are fairly
reviewed and expeditiously handled and that penalties for misconduct are
fairly administered.” The Professional Review Board is charged with
reviewing “incidents of misconduct” that are the subject of an investigation
by the Investigations Division or the OIG and are documented in a report of


       11 One of these 12 investigators is also the Shooting Review Coordinator and serves
as the lead investigator for shooting incidents.



U.S. Department of Justice                                                               6
Office of the Inspector General
Evaluation and Inspections Division
investigation. Prior to the Professional Review Board’s creation in 1995, all
misconduct cases were adjudicated by local management.

      The Professional Review Board is currently located within the ATF’s
Management Directorate and consists of four members and one Chair. All
five members have an equal vote in the proposal process; however, the Chair
administers the process and signs all resulting proposal letters.

      The Chair is a full-time, permanent, grade 15 position. The remaining
four members serve on the Professional Review Board in addition to their
permanent, full-time senior management assignments. This duty is
temporary and usually lasts from 12 to 18 months. The ATF tries to stagger
the rotation of Professional Review Board membership to ensure that it has
enough experienced voting members serving at all times.

       The Deputy Director of the ATF selects the four Professional Review
Board members from a pool of grade 15 and Senior Executive Service
supervisors and managers nominated by the seven ATF Assistant Directors.
At least two Professional Review Board members serving at any one time
must be series 1811 Criminal Investigators, and one member must be a
series 1854 Inspector. At least one, but no more than two, members must
be in the Senior Executive Service. For those cases involving misconduct by
a Senior Executive Service employee, the Senior Executive Service
Professional Review Board member serves temporarily as the Chair.

      The Professional Review Board is assisted by three Employee
Relations Specialists. 12 The specialists assist in researching and preparing
background information on each case and attend Professional Review Board
meetings in an advisory/support capacity. The specialists are also
responsible for collecting, entering, and maintaining case-related
information in the disciplinary case file database.

      Additionally, the Professional Review Board receives assistance, as
required, from representatives of the ELRT, the Office of Chief Counsel, and
the ATF Office of Equal Employment Opportunity. These representatives
review each Investigations Division investigation file and attend the
Professional Review Board meetings to provide counsel or guidance on


       12 One full-time, federally employed Employee Relations Specialist; one full-time,
contract Employee Relations Specialist; and one part-time, contract Employee Relations
Specialist are assigned to the Professional Review Board. These three specialists were
permanently assigned in the summer of 2003. Previously, these positions were assigned to
the Employee Labor Relations Team, which provided support to the Professional Review
Board on an as-needed basis.



U.S. Department of Justice                                                          7
Office of the Inspector General
Evaluation and Inspections Division
certain cases or proposed penalties as required. These representatives do
not vote.

       When the Professional Review Board receives a completed
investigation file from the Investigations Division, the file is assigned to one
of the three specialists for tracking and processing throughout the proposal
and decision-making phases. A copy of the investigation file is also provided
to each of the five Professional Review Board members and other
participants (such as the Office of Chief Counsel) at least one week in
advance of the scheduled meeting.

        The Professional Review Board meets approximately every 6 weeks to
review and determine proposed penalties (if warranted) on all investigation
files that have accumulated during that time. During the scheduled
meeting, the Professional Review Board proposes discipline for all
investigation files that have been distributed to the members. Generally,
the Professional Review Board adjudicates up to 15 cases per meeting. If an
unusually large number of investigation files come in from the
Investigations Division, the Professional Review Board may schedule an
additional meeting to avoid a backlog.

      Prior to the meeting, the Professional Review Board specialists
compile a summary of each subject’s investigation file and disciplinary
history, as well as information on past discipline proposed for similar cases.
The Chair meets with the specialists and other headquarters officials who
serve as advisors to the Professional Review Board to review this information
and determine how best to initiate discussion of the case during the
scheduled meeting.

      During the meeting, the five voting members discuss and determine
which charges addressed in the investigation file are supportable and then
vote on a proposed penalty. While a majority vote is all that is required, the
Professional Review Board attempts to obtain unanimous agreement on the
proposed penalty.

      On rare occasions (perhaps two to three cases per year), the
Professional Review Board postpones a vote. Generally, this is done
because the investigation file does not contain sufficient information for the
Professional Review Board to vote on the case or because the Professional
Review Board is aware that information on a related case is forthcoming.
When this occurs, the Professional Review Board may request that the
Investigations Division provide a supplemental investigation or that the
investigator in charge of the case answer the Professional Review Board’s
questions.


U.S. Department of Justice                                                 8
Office of the Inspector General
Evaluation and Inspections Division
      After the Professional Review Board adjourns, the specialists draft a
proposal letter for each case discussed during the meeting. 13 If the
Professional Review Board decides on a letter of clearance (the allegation
could not be sustained on the evidence presented), caution, admonishment,
or reprimand, the specialists draft the letter and forward it to the Bureau
Deciding Official for review, signature, and issuance to the employee.

       If the Professional Review Board proposes a suspension, a reduction
in pay or grade, or a removal, the specialist drafts the proposal letter and
submits it to the Chief of the ELRT for a “technical review to determine the
adequacy of the record and to ensure uniformity of proposals.” 14 Proposal
letters involving discipline exceeding a 14-day suspension, a reduction in
pay or grade, or a removal are also forwarded to the Office of Chief Counsel,
where they are reviewed for “legal sufficiency.” After review, the proposal
letter is signed by the Chair. The signed proposal letter and a copy of the
investigation file are provided to the employee and the deciding official.
Employees are required to sign an acknowledgement of receipt form
indicating that they have received the proposal package. At this point, the
proposal phase of the centralized process ends, and the decision phase
begins.

       The Bureau Deciding Official decides discipline or issues
clearance. On June 2, 2003, ATF Brief 2141.1 established the Bureau
Deciding Official pilot program to promote consistent and prompt
adjudication of proposals issued by the Professional Review Board. Under
the pilot program the ATF Director appoints one permanent, full-time, grade
15 or Senior Executive Service manager as the Bureau Deciding Official.
The Bureau Deciding Official is assigned to the Office of the Director and

       13 Some misconduct cases may raise concerns about the applicability or specificity
of current policies or procedures. When the Professional Review Board encounters such a
concern during a case, it can issue a “management referral.” This is a policy or procedure
recommendation made directly to local management or, in some cases, to ATF management
overall. As with the proposal letter, the specialist drafts it and the Chair reviews, signs,
and issues it. Management referrals are not disciplinary in nature and may be issued
independently or in conjunction with proposed discipline. According to the Professional
Review Board Chair, a management referral addresses a breakdown in policies and
procedures requiring management attention or oversight. The Professional Review Board
may propose discipline for an employee and simultaneously issue a management referral, if
an individual’s misconduct is identified, as well as related management issues. The
Professional Review Board issues few management referrals each year, approximately three
or four in FY 2004.

       14 According to ATF Brief 2750.1, the ELRT must concur with proposed disciplinary
actions, and both the ELRT and the Office of Chief Counsel must concur with proposed
adverse actions.



U.S. Department of Justice                                                            9
Office of the Inspector General
Evaluation and Inspections Division
serves as the deciding official for all Professional Review Board proposals
except for those designated as “management referrals.”

       The Bureau Deciding Official pilot program fully centralized the
process for determining final discipline for those misconduct allegations
investigated by the Investigations Division and adjudicated by the
Professional Review Board. The ATF’s Executive Staff originally was to
determine whether the pilot program should be implemented on a
permanent basis by December 2003. 15 Instead, the Executive Staff decided
to extend the pilot program indefinitely for additional evaluation.

      The Bureau Deciding Official becomes actively involved in the
adjudication phase of the centralized disciplinary process once the
Professional Review Board has issued a proposal letter to the employee. A
Professional Review Board specialist then delivers a copy of the
Investigations Division’s investigation file and the Professional Review
Board’s proposal letter to the Bureau Deciding Official. Once employees
receive a proposal letter recommending a suspension, demotion, or removal,
they have the opportunity to respond orally via telephone, in writing, or
both. The Bureau Deciding Official reviews these responses.

      The time allowed for the response depends on the facts and
circumstances of the case. The employee is given the opportunity to review
the material relied upon by the Professional Review Board to support the
proposed discipline, to prepare an answer, and to secure affidavits. At least
7 days is given, although 15 days is typical. 16

      Any oral response by the employee is recorded by a Professional
Review Board specialist, and the employee has an opportunity to comment
on the specialist’s written summary before the Bureau Deciding Official
renders his decision. The Office of Chief Counsel also is present during oral
responses (conference call) for cases involving a proposed adverse action.

      Once any oral or written reply has been submitted by the employee,
the Bureau Deciding Official reviews it and, using a Douglas Factors
worksheet (see Appendix I for the Douglas Factors), considers the mitigating
or aggravating factors that the employee’s reply presents. As part of the


       15 The Executive Staff consists of the Director, the Deputy Director, seven Assistant
Directors, and nine Deputy Assistant Directors.

       16 The Bureau Deciding Official monitors this employee response period in a case
log, using the date on which the Bureau Deciding Official receives a faxed copy of the
employee’s signed proposal receipt as the starting date for the reply period.



U.S. Department of Justice                                                             10
Office of the Inspector General
Evaluation and Inspections Division
review process, the Bureau Deciding Official may reference the subject’s
official personnel folder to review factors such as job performance,
promotion eligibility, and any prior disciplinary actions. The Bureau
Deciding Official also considers the level of discipline that the ATF meted
out for similar types of offenses in the past, based on a consistency review of
previous cases. The Bureau Deciding Official documents each of the factors
that was considered on the Douglas Factors worksheet and then signs and
dates the form. The Bureau Deciding Official can mitigate the Professional
Review Board’s proposed penalty, but may not increase it.

       After determining the appropriate penalty, the Bureau Deciding
Official renders a final decision. The Professional Review Board specialist
drafts a decision letter detailing the reasons, especially when mitigation has
occurred, for the discipline that is being imposed, including projected dates
when the punishment will take effect. The Chief of ELRT reviews the
decision letters imposing disciplinary action; the Office of Chief Counsel
reviews those imposing adverse actions. After these reviews are complete,
the Bureau Deciding Official signs the decision letter and sends it to the
employee. 17

      Local managers decide discipline with ELRT input. Prior to June
2003, local managers were responsible for making final disciplinary
decisions. Reliance on local managers to decide discipline for the
centralized process was suspended after the Bureau Deciding Official pilot
project became operational in June 2003. Prior to June 2003, when the
Professional Review Board proposed a penalty in a misconduct case, the
assigned ELRT specialist identified and notified the appropriate local
manager – usually the Special Agent in Charge or Assistant Special Agent in
Charge – that he or she must serve as the deciding official for the case. The
ELRT specialist then sent a copy of the proposal letter and the
Investigations Division investigation file to the deciding official to reference
when determining the appropriate penalty.




        17 The Bureau Deciding Official also reviews and signs any letters of clearance,

caution, admonishment, or reprimand proposed by the Professional Review Board. The
employee does not have an opportunity to reply to a letter of clearance, admonishment,
caution, or reprimand. However, an employee may grieve the action as specified in the
letter. A copy of the signed letter and receipt, along with any other related or supporting
documentation, is then placed in the employee’s disciplinary file. The disciplinary files are
maintained by the ELRT at ATF Headquarters for approximately 4 years before they are
archived. The ATF’s disciplinary system database (also referred to as HR Connect),
maintains this information indefinitely. Copies of letters of reprimand can be maintained in
the employee’s official personnel folder for up to 2 years.



U.S. Department of Justice                                                             11
Office of the Inspector General
Evaluation and Inspections Division
      Prior to June 2003, the Professional Review Board forwarded all
proposal letters, including letters of clearance, caution, admonishment, and
reprimand, to the local manager acting as the deciding official for review,
signature, and issuance to the employee.
The local deciding official could contact the              Centralized Process
ELRT specialist to discuss any issues or                   Prior to June 2003
concerns with the case.                               ID Investigates &
                                                    Compiles Investigative
                                                           Report
       If the Professional Review Board
proposed a suspension, reduction in pay, or      All ID & OIG Investigations

removal, the local deciding official was
                                                   Sent to the Professional
                                                        Review Board
responsible for considering the subject’s
oral and or written reply, applying the                PRB Proposes
                                                                                Prior to
                                                                               June 2003

Douglas Factors, and deciding what
                                                   Discipline or Clearance


discipline to impose. Once the deciding
official determined the penalty, the assigned                                         Local Manager

ELRT specialist drafted the decision letter
                                                                                         Decides
                                                                                      Discipline with
for review, signature, and delivery to the                                             ELRT Input


employee.
                                                                                 ELRT Specialist Creates
The Decentralized Process                                                        Official Discipline File &
                                                                                   Updates Disciplinary
                                                                                          Database

       Misconduct allegations that are not
investigated by Investigations Division or
the OIG are handled through a separate, decentralized disciplinary process.
The decentralized process involves minimal involvement or control by
headquarters entities, except for the ELRT’s advice and assistance, and
relies primarily on local management to conduct the investigation, proposal,
and decision phases of the process. The evidence collection, proposal and
decision may all be handled by the same official in cases that result in
discipline involving a suspension of 14 days or less. Approximately 630 ATF
supervisory-level employees are eligible to propose or decide misconduct
cases in the decentralized process.




U.S. Department of Justice                                                                     12
Office of the Inspector General
Evaluation and Inspections Division
       Specialists assigned to the ELRT provide assistance and guidance to
local management in the decentralized process. The ELRT falls under the
Personnel Division, within the Management Directorate. The Chief of the
ELRT oversees a staff of four employee relations specialists, two labor
relations specialists, one administrative assistant, and two part-time
students. 18
                                                                   Decentralized Process
       ELRT specialists provide advice to local
management throughout the decentralized process on                       ID Refers Case to
how to identify and report misconduct, provide the                       Local Manager for
necessary types of documentation to substantiate the                        Resolution

alleged charges, and prepare and draft proposal and
decision letters. While ELRT specialists provide advice                ELRT Advises Manager
to local management, it is important to note that they                    on Collection of
                                                                      Supporting Documentation
serve only in an advisory capacity and cannot overrule
or directly challenge actions taken by local
management.                                                            Local Manager Proposes
                                                                        Discipline with ELRT
                                                                                Input
      The ELRT advises managers on collection of
supporting documentation. The decentralized
process does not require local management to conduct          Local Management
                                                            Decides Discipline with
structured misconduct investigations, such as those               ELRT Input
required and produced by the Investigations Division
in the centralized process. On the basis of the ELRT’s
advice, the local manager may collect voluntary             ELRT Specialist Creates
                                                            Official Discipline File &
statements from the subject or witnesses and gather           Updates Disciplinary
supporting documents, such as e-mails, records,                      Database

reports, or activity logs, depending on the charges.
There is no written guidance indicating how this
supporting documentation should be collected. Our interviews with local
management showed that different offices employ different methods of
determining who collects the supporting documentation for the case and
who reviews the documents and evidence collected.

       Once documentation supporting an allegation of misconduct has been
collected and reviewed, the documentation is forwarded to the ELRT for its
review and inclusion in a disciplinary file. If the ELRT believes that the
documentation is insufficient to justify disciplinary action, it will
recommend that additional information be gathered, if possible, or it will

       18The six ELRT specialists are each assigned certain ATF district, regional, and
Headquarters offices for which they provide services. These services include assistance
with misconduct-related discipline, employment suitability, performance management, the
employee union contract, and performance appraisals.



U.S. Department of Justice                                                            13
Office of the Inspector General
Evaluation and Inspections Division
close the case. If the case is closed, no case-related information is created
or entered into the disciplinary case file database, and no disciplinary file is
created. If sufficient documentation is collected to substantiate the charges,
then the ELRT assists local management with the adjudication phase of the
decentralized process.

       Local manager proposes discipline with ELRT input. For
decentralized cases, the ATF permits a wide range of specified officials to act
as both the proposing and deciding official for cases that result in
disciplinary actions (suspensions of 14 days or less). Local management
usually determines who will serve as the proposing official for the case. The
proposing official and the ELRT normally discuss and agree on what the
penalty should be. The ELRT recommends an appropriate level of proposed
discipline based on the employee’s disciplinary history, as well as
information on past discipline proposed for similar cases. The proposing
official considers the ELRT’s recommendations and determines the
appropriate proposed penalty.
       Once the proposing official has determined the proposed penalty, the
ELRT specialist either drafts the proposal letter or reviews the proposing
official’s draft to ensure it meets the standards for content and language. If
a proposed penalty appears unreasonable, the ELRT discusses this with the
proposing official. However, the proposing official has the final authority to
determine the level of discipline that will be proposed in the letter. The
Chief of the ELRT reviews all proposal letters, and the Office of Chief
Counsel reviews proposal letters involving adverse actions. Once the
proposing official signs the proposal letter, it is issued to the employee.
Letters of caution, admonishment, or reprimand are issued directly to the
employee without a proposal letter.

       Local manager decides discipline with ELRT input. According to
the ELRT, the same individual can serve as both the proposing and deciding
official on the same case where a 14-day suspension or less is being
imposed, unless the individual requests not to serve in both capacities. If
the role of deciding official is filled by someone other than the proposing
official, the deciding official receives a copy of the proposal letter and the
supporting documentation to reference during the decision-making process.
      The deciding official is not required to hear the subject’s oral
response. This responsibility may be delegated to someone else, as long as
they are “administratively superior to and organizationally separate from the
employee.” 19 This individual is responsible for providing a written record of

       19   ATF Order 1150.4, “Delegation Order,” dated April 16, 1996.



U.S. Department of Justice                                                 14
Office of the Inspector General
Evaluation and Inspections Division
the employee’s response for consideration in the case. Once the deciding
official receives any oral or written reply from the employee, the deciding
official must consider any mitigating factors that could affect the level of
discipline to be imposed. The deciding official cannot increase the proposed
penalty, but may mitigate the proposed penalty, if appropriate.

       As in the proposal phase, the ELRT specialist may advise the deciding
official on the appropriate level of discipline, but the deciding official
ultimately determines what the penalty will be. Any major disagreements
between an ELRT specialist and the deciding official can be elevated to
higher ranking officials for resolution. Once a decision has been made, the
ELRT specialist assists the deciding official in preparing a decision letter.
According to ATF Order 2750.1C, the Chief of the ELRT reviews all decision
letters. The Office of Chief Counsel reviews all decision letters involving
adverse actions. The deciding official signs the decision letter and issues it
to the employee.

Disciplinary Files and Database

       Once a decision has been rendered on an employee misconduct case,
the Professional Review Board or ELRT specialist responsible for the case
creates an official disciplinary file. The ELRT maintains all of the ATF’s
official disciplinary files from the centralized and decentralized disciplinary
processes. These files contain all official adjudicative and grievance
documentation, as well as evidence sustaining misconduct allegations
handled through the decentralized process. 20 The disciplinary files are
maintained at ATF headquarters for approximately 4 years; older files are
archived. The Investigations Division maintains its employee misconduct
investigation files separately. The Investigations Division’s investigation
files can be cross-referenced with the disciplinary files by employee name.

      ELRT specialists are also responsible for entering and maintaining
case-related information from their assigned employee misconduct cases in
the disciplinary system database. There are no established standards or
procedures for entering, maintaining, or reviewing case information in the
database. Our interviews with Professional Review Board and ELRT
specialists indicated that information can be entered as it becomes



       20 According to ATF Order 2750.1C, “Adverse Action and Discipline,” July 11, 1989,
a record of the following documents shall be maintained by the ELRT: “(1) the notice of
proposed action, (2) the answer of the employee if written, and/or a summary therof [sic] if
made orally, (3) the notice of decision and reasons therfor [sic], and (4) any order effecting
the action, together with any supporting material.”



U.S. Department of Justice                                                               15
Office of the Inspector General
Evaluation and Inspections Division
available, at specific phases of the process, or at the end of the adjudicative
process.

      To officially close an employee misconduct case, the discipline must
be imposed. 21 This is done either by placing a copy of a letter of reprimand
in the employee’s official personnel folder or initiating a Standard Form-50
(SF-50) for suspensions, reductions in pay, or removals. 22 Letters of
reprimand remain in an employee’s official personnel folder for up to
2 years. The SF-50 becomes a permanent part of the employee’s official
personnel folder and serves as documentation that the employee officially
received the punishment set forth in the decision letter.




       21Misconduct cases involving letters of caution and admonishment are considered
closed once the employee receives the letter.

       22The SF-50 is the official Office of Personnel Management document that effects
United States government employee actions. Thus, all discipline that results in a change to
the employee’s pay, grade, or employment status must be implemented using an SF-50.



U.S. Department of Justice                                                           16
Office of the Inspector General
Evaluation and Inspections Division
                    PURPOSE, SCOPE, AND METHODOLOGY


Purpose

       The OIG conducted this review to assess the effectiveness of the ATF’s
system for investigating allegations of employee misconduct and for
disciplining employees who are found to have committed misconduct.
Specifically, we reviewed the consistency and reasonableness of the
reporting and investigation of alleged misconduct, adjudication of
misconduct cases, and implementation of the discipline imposed by the
ATF. We also reviewed the timeliness of the ATF’s disciplinary system for
processing misconduct cases. Also, at the request of the ATF, we evaluated
a pilot project intended to improve the adjudication of the centralized
process misconduct cases.

Scope

      We reviewed allegations of misconduct by ATF employees that
resulted in disciplinary action or clearances in FY 2002 through FY 2004.
We excluded discipline cases that were still open as of September 30, 2004.

Methodology

      Background. To better understand the ATF’s disciplinary system, we
reviewed policies, procedures, briefing documents, personnel case logs, and
other documents relating to the ATF’s disciplinary system. We also reviewed
OIG Investigations Division data relating to the ATF’s disciplinary system,
previous OIG reports concerning Department disciplinary systems, a
Department of the Treasury OIG report on the ATF’s disciplinary system, 23
and federal and Department-wide laws and regulations applicable to
disciplinary systems.

       Interviews. We interviewed ATF officials and staff from the three
offices involved with the operation of the disciplinary system. From the
Office of Professional Responsibility and Security Operations, we interviewed
the Assistant Director of the Directorate and the Special Agent in Charge of
the Office of Investigations, as well as one Special Agent and two
administrative staff from the Office of Investigations. From the Office of
Management, we interviewed the Assistant Director of the Directorate, the
Chief of the Employee Labor Relations Team, three Employee Labor

       23U.S. Department of the Treasury, Office of Inspector General, Integrity Oversight
Review of the Bureau of Alcohol, Tobacco and Firearms, March 2001.



U.S. Department of Justice                                                            17
Office of the Inspector General
Evaluation and Inspections Division
Relations Team Specialists, the Information Technology Specialist, the Chair
of the Professional Review Board, and the Professional Review Board’s three
Employee Relations Specialists. We also interviewed three current
Professional Review Board members, a former Professional Review Board
Chair, and the Bureau Deciding Official. We interviewed the Associate Chief
Counsel and Deputy Associate Chief Counsel for the Administration and
Ethics Division in the Office of Chief Counsel. In addition, we conducted
telephonic interviews with six managers in ATF Field Offices who have
served as proposing or deciding officials in misconduct cases.

       Data. The ATF also provided us with disciplinary case information
from its database, HR Connect. The data we received came from a segment
of the database that Employee Labor Relations Team and Professional
Review Board Specialists use for processing disciplinary adjudications and
also from a separate segment of the database that the Office of
Investigations uses to track allegations of misconduct and internal
investigations. Neither segment of the database is subject to formal quality
assurance policies and procedures. Thus, for the purposes of our review,
we relied primarily upon the case data in the physical case files, rather than
case information pulled from the database.

       Disciplinary Case File Review. To evaluate both processes within
the ATF’s disciplinary system, including the impact of the Bureau Deciding
Official pilot program on the centralized process, we selected 230 case files
to review. Of the 230 misconduct case files we selected:

   •   154 closed cases from the centralized process, 77 of which were
       decided by the Bureau Deciding Official. The other 77 closed cases
       we reviewed were adjudicated by local management prior to the
       initiation of the Bureau Deciding Official pilot project, and

   •   76 closed cases from the decentralized process.

      Investigative File Review. We verified the existence of the incident
reports and investigative reports for all of the disciplinary case files that we
reviewed. We collected timeliness data on the dates on which allegations of
misconduct were reported and the dates on which the investigations were
closed from the incident reports and investigative reports. We also
requested that the OIG’s Investigations Division subjectively sample and
review 17 reports of investigation to determine whether the investigations
were thorough and complete. We also requested a review of the investigative
portion of the 76 decentralized process disciplinary case files to determine
whether the misconduct was reported to the OIG and whether the
misconduct should have been reported to the OIG.


U.S. Department of Justice                                                 18
Office of the Inspector General
Evaluation and Inspections Division
      To support our analysis of disciplinary consistency, we compared case
information from the ATF’s disciplinary database to the information in the
disciplinary case files that we reviewed. We compared 134 database
summary sheets that were in the case files that we reviewed to the
disciplinary case file information to determine whether the database
accurately reflected the misconduct charges and penalties in the case files.
We also compared the misconduct case list provided to us from the
disciplinary database to the case list from the investigative database to
determine whether the disciplinary database’s case list was complete.

       Employee Survey. We conducted an e-mail survey of a random
sample of ATF employees to determine their experience with and perception
of the ATF’s disciplinary system. We sent surveys to 860 ATF employees
and received 421 responses.

      SF-50 Review. To verify that the discipline imposed in the
misconduct cases that we reviewed had actually been implemented, we
requested that the ATF provide us with a copy of all SF-50s for suspensions,
demotions, removals, and reductions in grade processed between FY 2002
to FY 2004. We matched these to the cases in our sample.

       Definitions. We defined our evaluation criteria – consistency,
reasonableness, and timeliness – based on the interpretations of these
criteria used in three previous OIG reports examining Department
disciplinary systems. 24 We defined consistency, reasonableness, and
timeliness as follows:

   •   Consistency: Whether the policies and procedures in place were
       followed; whether the disciplinary system processed similar
       misconduct cases using uniform standards; and whether the
       disciplinary system imposed uniform penalties for similar misconduct
       across the ATF and within the same location.

   •   Reasonableness: How thorough the investigations and adjudications
       appeared; how objective and independent the process for investigating
       and adjudicating misconduct cases appeared; and how logical or
       appropriate the penalties for the misconduct appeared.



       24 These three OIG reports are Review of the Federal Bureau of Prisons’ Disciplinary
System, I-2004-008, September 2004; Review of the Drug Enforcement Administration’s
Disciplinary System, I-2004-002, January 2004; and Review of the United States Marshals
Service Discipline Process, I-2001-011, September 2001.



U.S. Department of Justice                                                             19
Office of the Inspector General
Evaluation and Inspections Division
   •   Timeliness: Whether policies and procedures in place ensured timely
       disciplinary results and how often the disciplinary system met
       formally established time and performance standards.




U.S. Department of Justice                                           20
Office of the Inspector General
Evaluation and Inspections Division
                            RESULTS OF THE REVIEW


REPORTING AND INVESTIGATION OF MISCONDUCT ALLEGATIONS

       ATF employees did not always report misconduct
       allegations to the ATF Investigations Division, as
       required by ATF policy. In addition, the ATF did not
       consistently report misconduct allegations to the OIG for
       review, as required by OIG policy.      Also, the ATF’s
       misconduct investigations were not consistently
       thorough.

Employees did not consistently comply with the ATF’s misconduct
reporting requirements.

      ATF Order 2130.1 requires that “any allegation or information that
the standards or rules of conduct have been violated must be promptly
reported by the employee having the information” to the ATF Investigations
Division. 25 As an alternative, ATF Order 2130.1 states that employees can
report misconduct directly to the OIG. Despite this reporting requirement,
we found that ATF employees did not consistently report all allegations of
misconduct to the Office of Professional Responsibility and Security
Operations’ Investigations Division or to the OIG. Interviews with local
management, ELRT specialists, and Investigations Division officials revealed
that ATF employees often reported allegations of misconduct to their
supervisors rather than directly to the Investigations Division and their
supervisors did not consistently forward the complaints to the Investigations
Division.

        Specifically, the ATF could not document that 59 of the 230 employee
misconduct cases that we reviewed were ever reported to the Investigations
Division, as required. All 59 of these cases were handled by local
management using the decentralized process. The 59 cases included such
misconduct charges as insubordination, absence without leave, misuse of
credit card, and misuse of position. The Investigations Division had no
record of an incident report corresponding to any of these cases, nor did the
disciplinary case files maintained by the ELRT document a report of the
initial misconduct allegation to the Investigations Division.


       25 ATF Order 2130.1 requires ATF employees to report misconduct to the Office of

Inspections, which has since been renamed the Office of Professional Responsibility and
Security Operations, of which the Investigations Division is a part.



U.S. Department of Justice                                                         21
Office of the Inspector General
Evaluation and Inspections Division
      Additionally, our employee survey confirmed that employees did not
always report misconduct directly to the Investigations Division. Of the
421 employees who responded to our survey, 69 said that they were
unaware of their obligation to report misconduct. Out of 345 employees
who were aware of the obligation to report misconduct, only 110 stated that
they had reported misconduct that they had witnessed. Some of these
employees did not report it directly to the Investigations Division, as
required. Only 35 of the 110 survey respondents who reported misconduct
allegations (32 percent) properly reported the misconduct to the
Investigations Division or the OIG, in accordance with ATF Order 2130.1.
Chart 1 indicates where our survey respondents reported misconduct.

  Chart 1: Survey Respondents’ Reporting of Misconduct Allegations




                           Supervisor or Local
                            Management, 68



                                                  ID, 29

                           ELRT, 7      OIG, 6




Source: OIG survey of ATF employees



       Although 68 of our survey respondents (62 percent) stated that they
reported misconduct allegations directly to local management rather than
the Investigations Division, local managers did not always report the
allegations to the Investigations Division, as required. We were told in
interviews and briefings that local management sometimes contacted the
ELRT to discuss whether an allegation of misconduct could be handled
through the decentralized process, without reporting the allegation to the
Investigations Division. When this happened, ELRT specialists determined
whether the misconduct allegation constituted more serious misconduct. If
it did, the ELRT advised the manager to report the allegation to the
Investigations Division so it could make a determination whether to conduct
an investigation or refer it back to local management for action. If the ELRT
did not believe the allegation met the criteria for more serious conduct, it


U.S. Department of Justice                                             22
Office of the Inspector General
Evaluation and Inspections Division
would begin to provide advice to local management on how to proceed. The
ELRT specialists did not report misconduct allegations they received from
local management to the Investigations Division, nor did they require
documentation verifying that the manager had reported the misconduct
allegation to the Investigations Division.

The ATF did not comply with the OIG’s misconduct reporting
requirements.

      Because the ATF was not in compliance with its own reporting
requirements, it also was not in compliance with the requirement to report
misconduct to the OIG. Of the 76 decentralized process case files we
reviewed, 58 misconduct cases occurred after the ATF transferred to the
Department in January 2003 and, thus, were subject to the Department’s
OIG requirement to report allegations of employee misconduct to the OIG.
Our review of case files, incident reports, and OIG records showed that 47 of
these 58 cases were not reported to the OIG in accordance with OIG policy.

      An OIG memorandum dated March 26, 2003, OIG Investigative
Procedures Relating to the ATF, requires that the ATF report allegations of
employee misconduct to the OIG. Our review of the Investigations Division’s
incident reports and OIG records showed that, for the time period reviewed,
the Investigations Division reported all allegations that it received to the
OIG. However, because local management sometimes reported misconduct
allegations to the ELRT and not the Investigations Division as required, and
the ELRT did not ensure that these allegations were reported to the
Investigations Division or the OIG, the ATF could not ensure that it fully
complied with the Department’s reporting requirement.

      The ATF’s noncompliance with internal and OIG reporting
requirements altered the way in which the ATF’s disciplinary system
operated. The ATF’s failure to ensure that all allegations of misconduct
were properly reported enabled local managers to determine whether the
allegations were serious or minor, in contradiction of ATF Order 8610.1A
that delegates this authority to the Investigations Division. This, in turn,
caused six misconduct allegations in our case file review that would
normally be investigated or monitored by the Investigations Division under
OIG oversight to instead be handled through the decentralized process
without any report to the Investigations Division or the OIG. The ATF’s
noncompliance with reporting policies increases the likelihood that similar
types of misconduct may be handled inconsistently through both
disciplinary processes and, thus, may be subjected to different investigative
and adjudicative standards. Additionally, the ATF’s failure to ensure proper
reporting of misconduct allegations inhibited both the ATF’s and the OIG’s


U.S. Department of Justice                                             23
Office of the Inspector General
Evaluation and Inspections Division
ability to compile, monitor, and report accurate statistics on ATF employee
misconduct.

      Figure 2, on the next page, diagrams how the ATF’s discipline system
actually works, in comparison to Figure 1 on page 3, which diagrams how
the system is supposed to work according to ATF regulations and OIG
policy.




U.S. Department of Justice                                             24
Office of the Inspector General
Evaluation and Inspections Division
                Figure 2: The ATF’s Disciplinary System in Practice



                                                          START                                                   No
                                    Employee Reports Alleged Misconduct to Local Manager
                                           (Employee May Report Directly to ID)
                                                                                                         Already
                                                                                                         Reported
                                                                                                          to ID?
                                 More                                                  Not
                                 Serious                Manager Evaluates              Serious
                                                          Seriousness

                           Local Manager Reports
                             Misconduct to the                                  Local Manager Reports
                           Investigations Division                               Misconduct to ELRT


                            ID Reports Allegation
                                  to OIG
                                                                                  ELRT Consultation     Yes
                                                                                     Identifies
                                                                                    Misconduct as
                  Yes                                                                 Serious?
                                  Open OIG
                                Investigation?
     OIG Investigates                                                                        No
       & Compiles
                                       No
        Report of                                             ID Refers             ELRT Advises
      Investigation                                            Case to               Manager on
                                   Open ID              No                                                              Yes
                                                                Local                Collection of
                                Investigation?                 Manager                Supporting
                                                                 for                Documentation
                                           Yes                Resolution
                         ID Investigates & Compiles
                           Report of Investigation
                                                                                      Allegation        No
                                                                                     Supportable?
                        All ID & OIG Investigations
                        Sent to Professional Review
                                   Board                                                      Yes
                                                                                    Local Manager
                                                          Prior to                Proposes Discipline
                         PRB Proposes Discipline or      June 2003                 with ELRT Input
                                Clearance

                         June 2003
                         to Present                          Local Manager
                                                                Decides
                          Bureau Deciding Official                                 Local Manager
                                                             Discipline with
                         Decides Discipline or Issues                             Decides Discipline
                                                              ELRT Input
                                 Clearance                                        with ELRT Input

                                                                                                             Process Ends;
            PRB Specialist or ELRT Specialist Creates Official Discipline File & Updates Disciplinary           No File
                                                   Database                                                     Created




Source: OIG interviews and briefings with ATF officials




U.S. Department of Justice                                                                                               25
Office of the Inspector General
Evaluation and Inspections Division
Investigations were not always thorough.

       While we found that investigations conducted under the centralized
process were generally thorough, investigations conducted under the
decentralized process did not always exhibit sufficient evidence of a
thorough investigation. The 76 decentralized process case files we reviewed
did not contain sufficient evidence to show that the misconduct allegations
were adequately investigated. In fact, 16 of the 76 case files that we
reviewed contained no documentation at all to show that there had been
any investigation into the alleged misconduct, even though discipline had
been imposed. The remaining 60 decentralized process case files contained
documentation of some informal evidence collection. The types of evidence
maintained in these 60 case files varied widely. Some case files contained
activity logs, time reports, or written guidance pertaining to the alleged
misconduct. Others contained written statements from the employee being
investigated that described the circumstances surrounding the alleged
misconduct. One case file contained only a memorandum from the local
manager who processed the case, describing a statement that he had
obtained from the employee; the employee’s original statement was not
included in the file. None of the decentralized process case files contained a
report of investigation. Without a thorough investigation, the ATF may not
have sufficient information to accurately determine whether misconduct
actually occurred.

       ELRT specialists routinely advise local managers on what types of
evidence must be collected to support an allegation of misconduct.
However, the ELRT specialist we interviewed stated that the ATF has no
written standards or guidance for the decentralized investigative process. In
fact, ATF Order 2750.1 states only that the Chief of the ELRT must review
the proposal and “copies of all materials upon which the proposal is based”
before discipline greater than 14 days’ suspension can be proposed. The
Order also states that the ELRT must maintain in the disciplinary file a
record of “any order effecting the action, together with any supporting
material.” The Order does not, however, provide any guidance on how
supporting materials should be collected or what types of materials are
appropriate. Instead, each ELRT specialist determines the appropriate level
of evidence individually. Based on the ELRT’s advice, local managers collect
evidence and send it to the ELRT via facsimile or e-mail for inclusion in the
disciplinary file. The ELRT does not track what types of evidence have been
recommended or when evidence is received from local management.

      In contrast to the investigations conducted by local managers, the
OIG’s Investigations Division reviewed the investigations conducted by the
ATF Investigations Division and concluded that they were thorough,


U.S. Department of Justice                                              26
Office of the Inspector General
Evaluation and Inspections Division
objective, and well documented in reports of investigations. An OIG Special
Agent reviewed 17 reports of investigations and found that the
investigations conducted by the ATF Investigations Division were thorough.
The OIG Special Agent concluded that the ATF investigators interviewed
relevant witnesses and examined necessary documents, and that the
investigative reports contained the information necessary to understand the
actions taken during the investigations. The OIG Special Agent rated all
17 investigations reviewed as either very good or good.




U.S. Department of Justice                                            27
Office of the Inspector General
Evaluation and Inspections Division
ADJUDICATION OF MISCONDUCT CASES

       The ATF’s disciplinary system did not ensure consistent
       and reasonable adjudications. The disciplinary system
       unreasonably permitted a single individual to carry out
       the entire adjudicative process on cases handled under
       the decentralized process. Prior misconduct was not
       consistently considered when applying discipline, and
       errors in the ATF’s disciplinary database reduced its
       reliability in identifying prior discipline imposed in
       similar cases. Similar types of misconduct cases were
       not always charged consistently, and the disciplinary
       system did not impose consistent discipline for these
       cases. Finally, the ATF did not adequately document its
       reasons for mitigating some misconduct cases.

Inadequate separation of responsibilities.

       In the decentralized process, the same official was permitted to
propose and decide discipline for misconduct cases that resulted in a
penalty of a 14-day suspension or less. Specifically, ATF Order 1150.4
grants the authority to ATF officials to act as the proposing and deciding
official for this category of cases. By contrast, the centralized process
requires the Investigations Division to investigate misconduct allegations,
the Professional Review Board to propose discipline, and the Bureau
Deciding Official (or, previously, local managers) to decide discipline.
Although ATF Order 1150.4 does not require local managers in
decentralized cases to serve as both the proposing and deciding official on
an individual misconduct case, the ELRT specialist we interviewed stated
that, in her experience, local managers generally served in both capacities
unless they raised a specific objection to the arrangement.

      Of the 76 decentralized process case files we reviewed, 19 cases
resulted in proposed suspensions of 14 or fewer days. In 13 of these
19 misconduct cases, the penalties were proposed and decided by the same
individual, and grievances were filed in 4 of the 13 cases. The remaining
63 decentralized process misconduct cases, which did not involve a single
individual serving as both the proposing and deciding official, resulted in
only 3 grievances.

      One of the grievances in a case in which discipline was proposed and
decided by the same individual specifically alleged:

       “My immediate supervisor began a campaign of retribution against
       me…. [He] tried to dissuade me from filing the Grievance [sic]…. I

U.S. Department of Justice                                              28
Office of the Inspector General
Evaluation and Inspections Division
       request[ed] that the [supervisor] be instructed to cease his personal
       vendetta against me.”

Another of these grievances expressed the employee’s concerns that the
supervisor’s actions related to the misconduct case were “personally-
motivated [sic] and vindictive.”

      Our previous reviews of three other Department components’
disciplinary systems revealed that those components do not use this method
of adjudicating misconduct. 26 In the other components we reviewed, the
proposing and deciding official responsibilities are assigned to separate
individuals or entities regardless of the severity of the discipline. The
practice of combining the responsibilities of collecting evidence, proposing,
and deciding discipline removes the checks and balances and objectivity
normally in place in a disciplinary process.

The ATF does not employ a consistent standard for considering prior
misconduct when adjudicating misconduct cases.

       We also found indications that the ATF did not employ a consistent,
standard methodology for considering past misconduct when determining
the appropriate application of more severe discipline for repeat offenses. For
instance, we found one case in which the proposed penalty was based, in
part, on misconduct that resulted in discipline 6 years prior to the current
misconduct. Conversely, we found a case in which prior misconduct was
not considered, although the employee had received discipline less than
2 years prior to the current misconduct. Our interviews with ATF officials
confirmed that the determination to consider prior misconduct varied on a
case-by-case basis, with no written standard to guide the decision. In
contrast, our reviews of three other Department disciplinary systems
revealed that prior misconduct cannot be considered if it occurred over
2 years ago. 27




       26 The OIG reports include Review of the Federal Bureau of Prisons’ Disciplinary
System, I-2004-008, September 2004; Review of the Drug Enforcement Administration’s
Disciplinary System, I-2004-002, January 2004; and Review of the United States Marshals
Service Discipline Process, I-2001-011, September 2001.

       27 A small number of specific charges in the three Department components we

reviewed are restricted to 1 year or 6 months.



U.S. Department of Justice                                                        29
Office of the Inspector General
Evaluation and Inspections Division
The ATF did not accurately record misconduct cases in its disciplinary
database.

      The ATF relies on its disciplinary database as its primary source of
information for determining the consistency of penalties for similar
misconduct. 28 However, the ATF did not have sufficient internal controls to
ensure that all information was entered or that the data was accurate.

       We examined summary sheets from the disciplinary database that
were included in the 230 case files we reviewed and found that incorrect or
incomplete data had been entered in the database. Of the 230 case files,
134 files contained summary sheets from the disciplinary database. Of
these 134 database summary sheets, 38 incorrectly identified whether
misconduct had occurred. Additionally, we found that in 52 of the
summary sheets, the charge or discipline recorded in the case file
(specifically in the proposal and the decision letters) did not match the
charge or discipline recorded in the disciplinary database. These
inaccuracies prevent the ATF from successfully comparing similar
misconduct cases to determine the consistency of proposed charges and
penalties.

The ATF did not always adjudicate its misconduct cases
consistently.

      The charges that the ATF used to describe different types of
misconduct were not always consistently applied. For example, 31 of the
230 case files that we reviewed included the charge of “poor judgment.”
These 31 poor judgment charges encompassed a total of 22 different types
of misconduct, as shown in Table 1.




       28 The ATF uses its disciplinary database to track all facets of a misconduct case.

The disciplinary database is a segment of a larger human resources database, which also
contains the Investigations Division’s database and the system for processing SF-50s.



U.S. Department of Justice                                                           30
Office of the Inspector General
Evaluation and Inspections Division
                         Table 1: Poor Judgment Cases
                                                                     Number of
                             Types of Misconduct                       Cases
       1   Abusing the Public Transportation Incentive Program               1
       2   Accepting Money from Contract Cleaning Crew                       1
       3   Accessing a Secured Area of an Airport for Unofficial             1
           Purposes
       4   Allowing a Confrontational Situation to Escalate                 1
       5   Allowing a Prohibited Person Access to Firearms                  2
       6   Allowing an Agent's Son on the Range During Firearms             1
           Qualifications
       7   Allowing Defendant Being Transported to Call His                 1
           Girlfriend on the Phone
       8   Attempting to Obtain Prescription Drugs Under False              1
           Pretenses
      9    Conducting Internal Office Video Surveillance                    1
      10   Continuing Contact with Estranged Girlfriend Counter             1
           to Supervisor's Instructions
      11   Distributing a Political E-mail From ATF E-mail                  1
           Account
      12   Drinking Beverages Found on Site During the                      5
           Execution of a Search Warrant
      13   Failing to Accurately Report the Theft of an ATF-Issued          1
           Firearm
      14   Failing to Apply Reimbursements to Government Travel             1
           Card Expenditures
      15   Failing to Report Police Contacts to Supervisor                  1
      16   Harassing a Private Citizen                                      1
      17   Instructing Subordinates to Engage in Internal Office            1
           Video Surveillance
      18   Misuse of a Government-Owned Vehicle                             3
      19   Operating a Privately-Owned Vehicle After Consuming              3
           Alcohol
      20   Providing a Prohibited Weapon to a Friend                        1
      21   Testifying in Court for an Acquaintance Without                  1
           Supervisory Approval
      22   Viewing a Sexually Explicit DVD on a Government-                 1
           Owned Computer
                                                            TOTAL          31
     Source: OIG review of ATF disciplinary case files

       Some of the types of misconduct cited as poor judgment in these
cases, such as abuse of the Public Transportation Incentive Program,
misuse of a government-owned vehicle, and failure to apply reimbursements
to travel card expenditures, were also sometimes categorized as other, more
specific charges. We found that the cases involving poor judgment charges


U.S. Department of Justice                                                   31
Office of the Inspector General
Evaluation and Inspections Division
sometimes appeared to result in more lenient discipline than the cases with
more specific charges. For example, federal regulations require that
government employees who willfully misuse a government-owned vehicle are
subject to a mandatory 30-day suspension. 29 The ATF has applied this
mandatory penalty in cases involving the specific charge of “willful misuse of
a government-owned vehicle.” Nevertheless, two “poor judgment” cases we
reviewed involving misuse of a government-owned vehicle each resulted in
only a 2-day suspension. Another similar vehicle misuse case classified as
poor judgment resulted in a 4-day suspension.

Mitigation of penalties is not adequately documented.

      During our review of misconduct case files, we found 38 misconduct
cases in which the punishment was mitigated. Deciding officials may
mitigate proposed penalties based on consideration of the Douglas Factors
and any response provided by the employee. ATF Order 2750.1 describes
what is to be documented in a decision letter, including a discussion of any
mitigating factors.

      In 21 of the 38 cases that involved mitigation of the proposed penalty,
the reasons for the mitigation were not adequately documented in the
decision letter. The mitigations in these cases ranged from the reduction of
a proposed 1-day suspension to a letter of reprimand for a poor judgment
charge, to the reduction of a proposed removal to a 7-day suspension for
charges of submitting fraudulent travel vouchers, accepting per diem from
both the ATF and another government agency, and engaging in
unauthorized outside employment. Chart 2 below shows how much
mitigation was applied in the cases that we found were not adequately
explained.




        29 31 U.S.C. § 1349 (b). “An officer or employee who willfully uses or authorizes the

use of a passenger motor vehicle or aircraft owned or leased by the United States
Government … shall be suspended without pay … for at least one month, and when
circumstances warrant, for a longer period or summarily removed from office.”



U.S. Department of Justice                                                             32
Office of the Inspector General
Evaluation and Inspections Division
                          Chart 2: Mitigations with Insufficient Explanation

                    10
                          9
                     9

                     8

                     7
  Number of Cases




                     6

                     5

                     4
                                              3             3                  3
                     3
                                    2
                     2
                                                                     1
                     1

                     0
                         1 Day    2 Days    3 Days        4 Days   10 Days   14 Days
                                            Amount of Mitigation

Source: OIG review of ATF disciplinary case files

       The decision letters in these cases did not contain adequate
explanations of why the punishment recommended by the proposing
officials was mitigated. For example, some of the decision letters stated only
that the Douglas Factors had been considered without giving explanation of
which factors contributed to the mitigation and why. Other decision letters
stated that the deciding official had considered the employee’s written or
oral reply without citing specific reasons why the mitigation was
appropriate. This occurred under both the centralized process (18 cases)
and the decentralized process (3 cases).




U.S. Department of Justice                                                             33
Office of the Inspector General
Evaluation and Inspections Division
IMPLEMENTATION OF DISCIPLINE IMPOSED

       The ATF could not document that the discipline imposed
       had been implemented in all cases.

       We attempted to review all SF-50s documenting that the discipline in
the 120 cases in our sample in which the employees were suspended,
reduced in pay or grade, or removed was actually imposed. 30 In 14 out of
the 120 cases (12 percent), the ATF could not provide an SF-50 to verify that
the punishment was implemented. The 14 cases for which the ATF could
not provide SF-50s comprised 12 suspensions and 2 removals. The ATF
could not adequately explain why no SF-50 was available for 13 of these
cases. An ELRT specialist we interviewed confirmed that, at the time of the
interview, no SF-50 had yet been initiated for 1 of these 14 cases. The
decision letter for this case, imposing a 2-day suspension, was issued over
7 months before our interview with the ELRT specialist. According to the
specialist, the local manager who decided the case through the
decentralized process did not initiate an SF-50 to implement the suspension
before leaving that field office. The ELRT specialist emphasized that, while
the ELRT encourages managers to implement discipline in a timely manner,
local management is ultimately responsible for initiating the SF-50s.

       Because the ATF could not provide SF-50s in these cases, the ATF
could not demonstrate that the employees’ pay had been withheld for the
12 cases involving suspensions. Although the ATF could not provide SF-50s
for the two cases involving removals, we subsequently verified with ATF
officials that the employees had in fact been removed from service.




        30 The SF-50 is the official document that effects United States government

employee actions. Thus, each suspension, reduction in pay or grade, and removal related
to the case files that we reviewed should have a corresponding SF-50 documenting that the
penalties had been implemented.




U.S. Department of Justice                                                         34
Office of the Inspector General
Evaluation and Inspections Division
TIMELINESS OF THE ATF’S DISCIPLINARY SYSTEM

       The ATF has not established timeliness standards to
       measure the performance of its overall disciplinary
       system or its two current processes.    However, the
       average time that the ATF took to investigate and
       adjudicate misconduct cases was in the range of other
       Department components that we have reviewed.

The ATF has not implemented timeliness standards to measure its
performance.

      The ATF has not implemented any timeliness standards to measure
the performance of its overall disciplinary system. Timeliness data for the
centralized process is collected and recorded in a monthly status report
generated by the Investigations Division.

       However, timeliness data for the decentralized process is recorded in
the disciplinary database only from the start of the adjudication and only for
those cases in which discipline is proposed or imposed. 31 We were unable
to determine the timeliness of the investigations for this process because the
ATF lacks any requirement that this type of information be uniformly
collected and recorded by either field personnel or ELRT specialists who
assist in decentralized process cases. As a result, the ATF cannot measure
the timeliness or performance of its entire discipline system until it
establishes formal data collection procedures and ensures that the
procedures are followed.

       In our three prior reviews of Department components’ discipline
systems, we recommended that the components institute timeliness
standards to measure system performance. All three components concurred
with the recommendations. As a result, the components have either
established timeliness standards or are in the process of testing, analyzing,
and determining what those standards should be prior to formal
implementation. The United States Marshals Service’s Office of Internal
Affairs has established a standard of 90 days and the Drug Enforcement
Administration’s Office of Professional Responsibility has established a
standard of 180 days for completing investigations of employee misconduct.
The Bureau of Prisons is in the process of formalizing investigations
timeframes. The Bureau of Prisons and the Drug Enforcement
Administration are also working on developing formal timeframes for

       31 The decentralized process does not track misconduct cases resulting in a letter of

clearance.



U.S. Department of Justice                                                            35
Office of the Inspector General
Evaluation and Inspections Division
adjudicating misconduct cases. The United States Marshals Service has
formalized its adjudication timeframes.

ATF investigative and adjudicative efforts were within the range of
other three Department components that we have reviewed.

      Although the ATF does not require or track the timeliness of the
discipline process, we calculated the timeliness of its disciplinary system
based on our analysis of the 154 centralized process case files reviewed.
On the average, it took the ATF 277 days to process a misconduct
allegation – 112 days to investigate the allegation and 165 days to
adjudicate the case. We were unable to incorporate the decentralized
process cases into our calculations because the dates tracked in the
decentralized process’s files were not comparable to the dates tracked by the
centralized process.

       The Investigations Division’s investigation times, based on 133 reports
of investigation that we reviewed, are shown in Chart 3, below.

       Chart 3: Processing Times for the Investigations Division’s
                             Investigations


                               40
                                               36
           Num ber of C ases




                               30
                                                         24

                               20                                  18                                      19
                                     14
                                                                             10
                               10                                                       7
                                                                                                  4

                               0
                                    1 - 30   31 - 60   61 - 90   91 - 120 121 - 150 151 - 180 181 - 210   211+
                                                       Processing Time (In Days)

Source: OIG review of Investigations Division reports of investigation and incident reports

Some of the variation in the duration of the Investigations Division
investigations may be attributed to the varying complexity of the misconduct
investigations. Also, the time expended on each misconduct investigation
may be affected by the Investigations Division’s prioritization of cases based
on the severity of the offense and staff availability.




U.S. Department of Justice                                                                                       36
Office of the Inspector General
Evaluation and Inspections Division
      Our case file review indicated that the adjudication phase lasts, on
average, 165 days. Under the centralized process, the proposal portion of
the adjudication phase averaged 111 days from the completion of a report of
investigation to the issuance of a proposal letter. The time expended to
produce a proposal letter ranged from 32 days to 422 days. The average
time expended to produce a proposal letter, based on our review of
99 proposal letters, is shown in Chart 4.

       Chart 4: Processing Times for Centralized Process Proposals


                              40
           Num ber of Cases




                              30                            28
                                     25
                                               19
                              20

                                                                                                     10
                              10                                       8           6
                                                                                            3
                              0
                                   31 - 60   61 - 90     91 - 120   121 - 150 151 - 180 181 - 210   211+
                                                       Processing Time (In Days)

Source: OIG review of centralized process case files

       Disciplinary decisions in the adjudication phase of the centralized
process averaged 90 days to complete, following the issuance of a proposal
letter. The ATF’s decision letter processing time ranged from 19 days to
394 days. Chart 5 shows the amount of time expended on 93 disciplinary
decision letters we reviewed.




U.S. Department of Justice                                                                                 37
Office of the Inspector General
Evaluation and Inspections Division
       Chart 5: Processing Times for Centralized Process Decisions


                             40              38

          Num ber of Cases   30
                                                       22
                             20

                             10     7                                                                    7
                                                                  6         5                   5
                                                                                      3
                             0
                                  1 - 30   31 - 60   61 - 90   91 - 120 121 - 150 151 - 180 181 - 210   211+
                                                     Processing Time (In Days)

Source: OIG review of centralized process case files

Under the centralized process, letters of caution, admonishment, and
reprimand, which are generally issued to employees without a proposal
letter, averaged 119 days to produce, ranging from 56 days to 267 days.
Additionally, our case file review showed that the ATF’s disciplinary system
averaged 66 days to issue letters of clearance after an investigation is
complete, ranging from 16 days to 145 days.

       While neither the ATF nor the Department requires specific time
standards, the Department encourages managers “to act in a timely
manner” on misconduct cases. 32 To determine whether the time taken by
the ATF to process misconduct cases was within the range of the other three
Department components we have reviewed, we compared the average
amount of time the ATF took to investigate and adjudicate misconduct cases
to the other three Department components. We found that the average
amount of time that the ATF expended to investigate and adjudicate
misconduct cases was within the range of the other three Department
components (Table 2).




        32 U.S. Department of Justice Human Resources Order 1200.1, Chapter 3-1,

Discipline and Adverse Actions, August 25, 1998.



U.S. Department of Justice                                                                                     38
Office of the Inspector General
Evaluation and Inspections Division
          Table 2: Component’s Discipline Case Processing Times
                          Average           Average       Total Average
                       Investigation      Adjudication      Processing
       Component      Processing Time Processing Time          Time
Bureau of Alcohol,
Tobacco, Firearms           112 days                165 days                277 days
and Explosives
Federal Bureau of
                            94 days                 104 days                198 days
Prisonsa
Drug Enforcement
                            190 days                144 days                334 days
Administrationb
United States
                            Not reviewed            140 days                Not available
Marshals Servicec
a   Data based on the OIG’s 2004 review of the Federal Bureau of Prisons’ disciplinary system.
bData based on the OIG’s 2004 review of the Drug Enforcement Administration’s
disciplinary system.
c Data based on the OIG’s 2001 review of the United States Marshals Service’s disciplinary

system.

Source: OIG review of the ATF’s centralized process case files and previous OIG reviews




U.S. Department of Justice                                                             39
Office of the Inspector General
Evaluation and Inspections Division
REVIEW OF THE BUREAU DECIDING OFFICIAL PILOT PROJECT

       In June 2003, the ATF established a Bureau Deciding
       Official to decide the punishment in every case in the
       centralized process, rather than relying on multiple
       deciding officials. We evaluated the Bureau Deciding
       Official pilot program and concluded that it was more
       timely, consistent, and reasonable than the process it
       replaced.

       Prior to June 2003, the centralized process relied on local managers
to serve as deciding officials for employee misconduct cases. In June 2003,
the ATF implemented a pilot project establishing a single Bureau Deciding
Official to adjudicate all cases under the centralized process. A
June 2, 2003, memorandum from the Director of the ATF to all ATF
employees stated that:

       In addition to providing a mechanism for ensuring consistent final
       decisions, the establishment of the Bureau Deciding Official should
       serve to enhance timeliness of the overall deciding official process.
       While managers currently serving as deciding officials must handle
       that responsibility in conjunction with their other wide-ranging daily
       responsibilities, the [Bureau Deciding Official] will have a singular
       focus on the prompt and fair adjudication of proposals received.

       To evaluate whether the single Bureau Deciding Official was an
improvement, we performed a comparative analysis of disciplinary decisions
in the centralized process before and after the creation of the Bureau
Deciding Official. We found that the Bureau Deciding Official’s disciplinary
decisions were timelier than the decisions made prior to the June 2003
Bureau Deciding Official pilot project. For the time period reviewed, the
Bureau Deciding Official pilot project improved the average disciplinary
decision processing time by 43 percent. Based on 56 cases involving a
decision prior to June 2003, the average time for local deciding officials to
process a disciplinary decision was 111 days, ranging from 19 days to
394 days. Based on 43 such cases that were decided by the Bureau
Deciding Official after June 2003, the average time required for the Bureau
Deciding Official to decide cases was only 63 days, ranging from 26 days to
249 days. Chart 6 shows how long the centralized process took to issue
decision letters, before and after the initiation of the Bureau Deciding
Official pilot project.




U.S. Department of Justice                                               40
Office of the Inspector General
Evaluation and Inspections Division
       Chart 6: Centralized Process Decision Letter Processing Times



                               30
                                                          25
             Number of Cases
                               20
                                                     13
                                                                    11 12
                               10                                                                                            7
                                        6                                        7
                                                                                           5                       5
                                            3                                                             2 1                     2
                                                                                     0          0                      0
                               0




                                                                                                                             1+
                                      0



                                                   0



                                                                  0



                                                                               20



                                                                                           50



                                                                                                        80



                                                                                                                  10
                                    -3



                                                 -6



                                                                -9




                                                                                                                           21
                                                                             -1



                                                                                         -1



                                                                                                      -1



                                                                                                                -2
                                    1



                                                31



                                                               61



                                                                            91




                                                                                       1



                                                                                                      1



                                                                                                               1
                                                                                     12



                                                                                                    15



                                                                                                             18
Pre-BDO     BDO                                                 Processing Time (in Days)


 Source: OIG centralized process disciplinary case file review

       The Bureau Deciding Official process also provides for more
consistent decisions because the responsibility for deciding misconduct
cases has been consolidated. According to the Merit Systems Protection
Board, which hears employee appeals for misconduct cases involving
suspensions of more than 14 days, reductions in pay or grade, or removals,
deciding officials must issue disciplinary decisions consistent with their own
prior decisions in their current duty station. 33 Prior to June 2003,
therefore, individual deciding officials were only required to ensure
consistency with their prior decisions in similar cases and were not required
to consider the decisions of other deciding officials or conform to an
ATF-wide discipline standard. Because deciding officials must issue
disciplinary decisions consistent with their own prior decisions, the Bureau
Deciding Official is required to ensure consistency with his own prior
decisions in similar cases. Moreover, because the Bureau Deciding Official
is now responsible for all centralized process disciplinary decisions
ATF-wide, the Bureau Deciding Official is better able to ensure consistent
disciplinary outcomes throughout the ATF for the cases he adjudicates. 34

       33 Wentz v. United States Postal Service, 91 MSPR 176, 187 (March 13, 2002). “To
prove a disparate treatment claim with regard to the penalty of an act of misconduct, an
appellant must show that a similarly situated employee received a different penalty…. The
comparator employee must be in the same work unit… must have the same supervisors…
and the misconduct must be substantially similar.”

       34 The Bureau Deciding Official’s effect on agency-wide consistency only applies to

those misconduct cases handled through the centralized process, as local managers are
                                                                                   (Cont’d.)


U.S. Department of Justice                                                                                                            41
Office of the Inspector General
Evaluation and Inspections Division
       In addition, the policies and procedures guiding the Bureau Deciding
Official process promote a more consistent method for handling misconduct
cases than the guidance previously in place. For example, the Bureau
Deciding Official is required to hear, via telephone, all employees’ oral
replies to proposed discipline. All employees receive the same opportunity
to reply to proposed discipline in the same format. In contrast, previously
deciding officials could hear employees’ oral replies via telephone or in
person. Deciding officials were able to delegate the responsibility for hearing
an employee’s oral reply to another individual. That individual would then
summarize the oral reply for the deciding official’s consideration. This
process increased the likelihood that misconduct cases or employees could
receive inconsistent consideration during the adjudication phase.

       We also concluded that the Bureau Deciding Official’s decisions were
more reasonable than the decisions previously made by local deciding
officials. Prior to the creation of the Bureau Deciding Official, local
managers mitigated the proposed punishment in 26 of the 77 disciplinary
decisions we reviewed. Fifteen of the 26 cases that were mitigated did not
contain adequate explanation of the mitigation in the decision letters. As
discussed previously, some decision letters included only a broad statement
that the deciding official had “considered the Douglas Factors” or the
employee’s reply. Other decision letters stated that the deciding official felt
that the mitigated punishment appropriately addressed the misconduct, but
did not give any reason why the discipline was mitigated.

      In contrast, the Bureau Deciding Official mitigated the discipline
proposed by the Professional Review Board in only 7 of the 77 cases we
reviewed. Of those seven mitigations, three were not adequately explained
in the decision letters, as required. These three inadequately explained
mitigations were relatively minor, ranging from a 1-day mitigation to a 4-day
mitigation of proposed suspensions. These results show that the
introduction of the Bureau Deciding Official has reduced the incidence of
undocumented mitigations in the centralized process.




still able to impose discipline for cases investigated and adjudicated through the
decentralized process. Based on information provided to us by the ATF, approximately 630
local managers were eligible to propose or decide discipline through the decentralized
process for the time period reviewed.



U.S. Department of Justice                                                        42
Office of the Inspector General
Evaluation and Inspections Division
                   CONCLUSION AND RECOMMENDATIONS


CONCLUSION

      Although the establishment of a Bureau Deciding Official improved
the consistency, reasonableness, and timeliness of the adjudication of
discipline cases under the centralized process, we conclude that further
improvements are needed to address the problems we found in the ATF’s
disciplinary system.

      We found that the ATF does not ensure that all allegations of
employee misconduct are reported to the ATF Investigations Division and
the OIG, as required. The ATF’s failure to ensure consistent reporting
enabled some serious misconduct cases to be investigated and adjudicated
under the decentralized process, in which no formal investigation is
required.

      The ATF’s practice of allowing a single individual to serve as both the
proposing and deciding official for an employee misconduct case removes
the checks and balances normally in place in the disciplinary system and
increases the likelihood for an unreasonable disciplinary result. Also, the
ATF inconsistently considers prior discipline, and inconsistencies in the
disciplinary database impede the ATF’s ability to ensure that discipline is
consistent for similar misconduct cases. Deciding officials do not always
thoroughly document their reasons for mitigating proposed discipline.

      We found that the average time the ATF took to investigate and
adjudicate misconduct cases was within the range of the processing times of
other Department components we have reviewed. However, the ATF has not
implemented timeliness standards or goals to measure the discipline
system’s performance.

       For the time period reviewed, the Bureau Deciding Official pilot
project improved the timeliness, consistency, and reasonableness of
disciplinary decisions in the centralized process. Based on our review of the
pilot project, we believe the use of a Bureau Deciding Official will produce
more consistent, reasonable, and timely adjudicative decisions.

RECOMMENDATIONS

      We provide nine recommendations to help the ATF better ensure that
its disciplinary system is timely, consistent, and reasonable. The
recommendations focus on ensuring compliance with misconduct reporting


U.S. Department of Justice
                                                                         43
Office of the Inspector General
Evaluation and Inspections Division
requirements; thorough investigation of misconduct allegations; consistent
and reasonable adjudication of misconduct cases; consistent
implementation of discipline imposed; and timely system performance. We
recommend that the ATF:

     1.   Remind all employees on an annual basis, particularly local
          managers and ELRT staff, that any allegation or information
          concerning misconduct must be promptly reported to the ATF
          Investigations Division or the OIG.

     2.   Require that all investigations of alleged misconduct be conducted
          or reviewed by the ATF Investigations Division before the
          misconduct case can be adjudicated.

     3.   Properly categorize misconduct to accurately reflect the underlying
          misconduct, rather than applying generic charges such as “poor
          judgment.”

     4.   Establish data entry and quality control standards and procedures
          for all information entered in its automated disciplinary database
          and for all documentation collected and maintained in the
          disciplinary case files.

     5.   Require that each decision letter that reduces the proposed
          discipline adequately document the reasons for the mitigation.

     6.   Establish a time period for how far back prior discipline should be
          considered.

     7.   Prohibit the same individual from serving as the proposing and
          deciding official for the same misconduct case.

     8.   Establish policies and procedures, including management reviews,
          to ensure that discipline imposed is consistently implemented.

     9.   Establish time standards and performance measures for the
          investigation and adjudication phases for the centralized and
          decentralized disciplinary processes.




U.S. Department of Justice
                                                                          44
Office of the Inspector General
Evaluation and Inspections Division
                       APPENDIX I: DOUGLAS FACTORS


      In Douglas v. Veterans Administration (1981), the Merit Systems
Protection Board identified 12 relevant factors that agency management
needs to consider and weigh in deciding an appropriate disciplinary penalty.
The 12 Douglas Factors are:

       1.     The nature and seriousness of the offense and its relation to the
              employee’s duties, position, and responsibilities, including
              whether the offense was intentional or technical or inadvertent,
              or was committed maliciously or for gain, or was frequently
              repeated;

       2.     The employee’s job level and type of employment, including
              supervisory or fiduciary role, contacts with the public, and
              prominence of the position;

       3.     The employee’s past disciplinary record;

       4.     The employee’s past work record, including length of service,
              performance on the job, ability to get along with fellow workers,
              and dependability;

       5.     The effect of the offense upon the employee’s ability to perform
              at a satisfactory level and its effect upon supervisors’ confidence
              in the employee’s ability to perform assigned duties;

       6.     Consistency of the penalty with those imposed upon other
              employees for the same or similar offenses;

       7.     Consistency of the penalty with the applicable agency table of
              penalties (which are not to be applied mechanically so that
              other factors are ignored);

       8.     The notoriety of the offense or its impact upon the reputation of
              the agency;

       9.     The clarity with which the employee was on notice of any rules
              that were violated in committing the offense, or had been
              warned about the conduct in question;

       10.    The potential for employee’s rehabilitation;



U.S. Department of Justice
                                                                           45
Office of the Inspector General
Evaluation and Inspections Division
       11.    Mitigating circumstances surrounding the offense, such as
              unusual job tensions, personality problems, mental
              impairment, harassment, or bad faith, malice or provocation on
              the part of others involved in the matter; and

       12.    The adequacy and effectiveness of alternative sanctions to deter
              such conduct in the future by the employee or others.




U.S. Department of Justice
                                                                         46
Office of the Inspector General
Evaluation and Inspections Division
            APPENDIX II: ATF’S RESPONSE TO DRAFT REPORT




U.S. Department of Justice
                                                          47
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice
                                      48
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice
                                      49
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice
                                      50
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice
                                      51
Office of the Inspector General
Evaluation and Inspections Division
            APPENDIX III: OIG ANALYSIS OF ATF’S RESPONSE


       On July 15, 2005, the Office of the Inspector General (OIG) sent
copies of the draft report to the Bureau of Alcohol, Tobacco, Firearms and
Explosives (ATF) with a request for written comments. The ATF responded
to us in a memorandum dated September 2, 2005.

ATF Response

      The ATF generally concurred with the nine OIG recommendations to
help the ATF better ensure that its processing of employee misconduct cases
is timely, consistent, and reasonable. The ATF’s response also described the
actions it has taken and plans to take to implement the recommendations.

OIG Analysis of the ATF Response

       The actions undertaken and planned by the ATF to better ensure that
its processing of employee misconduct cases is timely, consistent, and
reasonable are responsive to our recommendations.

RECOMMENDATIONS

        Recommendation 1: Remind all employees on an annual basis,
particularly local managers and Employee Labor Relations Team (ELRT)
staff, that any allegation or information concerning misconduct must be
promptly reported to the ATF Investigations Division or the OIG.

       Status: Recommendation 1 is Resolved – Open.

      Summary of ATF Response. The ATF concurred with the
recommendation and described present efforts to remind employees of the
reporting requirement. As corrective action, the ATF plans to include a
reminder of the reporting requirement in required annual online training on
the Standards of Ethical Conduct by November 1, 2005.

      OIG Analysis. The actions planned by the ATF to remind its
employees annually that any allegation or information concerning
misconduct must be promptly reported to the ATF Investigations Division or
the OIG are responsive to our recommendation. Please provide a copy of the
revised online training on the Standards of Ethical Conduct by
January 31, 2006.




U.S. Department of Justice
                                                                      52
Office of the Inspector General
Evaluation and Inspections Division
      Recommendation 2: Require that all investigations of alleged
misconduct be conducted or reviewed by the ATF Investigations Division
before the misconduct case can be adjudicated.

       Status: Recommendation 2 is Resolved – Open.

      Summary of ATF Response. The ATF concurred with the
recommendation and will establish a process for the review of ELRT
(decentralized process) cases by the Investigations Division before any
misconduct case is adjudicated. The ATF expects to develop written
procedures for Investigations Division review by September 1, 2005.

      OIG Analysis. The actions planned by the ATF to establish written
procedures for the review of ELRT (decentralized process) cases by the
Investigations Division before any misconduct case is adjudicated are
responsive to our recommendation. Please provide a copy of the written
procedures for Investigations Division review by January 31, 2006.

       Recommendation 3: Properly categorize misconduct to accurately
reflect the underlying misconduct, rather than applying generic charges
such as “poor judgment.”

       Status: Recommendation 3 is Resolved – Open.

       Summary of ATF Response. The ATF generally concurred with the
recommendation and will specifically charge employees with misuse of a
government vehicle and other specific underlying misconduct when agency
counsel determines that all of the elements of the underlying misconduct
can likely be proven.

      OIG Analysis. The actions planned by the ATF to specifically charge
employees with misuse of a government vehicle and other similar charges
when agency counsel determines that all of the elements of the underlying
misconduct can likely be proven are responsive to our recommendation. So
that we may evaluate the ATF’s implementation of this recommendation,
please provide copies of the proposal and decision letters for all ATF
disciplinary actions during the first quarter of fiscal year (FY) 2006 by
January 31, 2006.

    Recommendation 4: Establish data entry and quality control
standards and procedures for all information entered in the ATF’s
automated disciplinary database and for all documentation collected and
maintained in the disciplinary case files.



U.S. Department of Justice
                                                                          53
Office of the Inspector General
Evaluation and Inspections Division
     Status: Recommendation 4 is Resolved – Open.

     Summary of ATF Response. The ATF concurred with the
recommendation and plans to establish standard operating procedures and
a checklist by December 31, 2005, for use by the employees who make
database entries. As a quality control measure, the Chairman of the
Professional Review Board will oversee a review of the records of
approximately 500 cases entered into the database over the last 5 years
during FY 2006.

      OIG Analysis. The actions planned by the ATF to establish standard
operating procedures and a checklist for use by the employees who make
database entries are responsive to our recommendation. Please provide a
copy of the standard operating procedures, the checklist, and a status
report on the case file review by January 31, 2006.

     Recommendation 5: Require that each decision letter that reduces
the proposed discipline adequately document the reasons for the mitigation.

     Status: Recommendation 5 is Resolved – Open.

     Summary of ATF Response. The ATF concurred with the
recommendation and, as directed by the Justice Management Division, the
ATF will include adequate documentation of the reasons for any mitigation
in future decision letters.

     OIG Analysis. The actions planned by the ATF to include adequate
documentation of the reasons for any mitigation in future decision letters
are responsive to our recommendation. On January 31, 2006, please
provide a copy of each decision letter reducing proposed discipline issued
between now and January 31, 2006.

     Recommendation 6: Establish a time period for how far back prior
discipline should be considered.

     Status: Recommendation 6 is Resolved – Open.

     Summary of ATF Response. The ATF generally concurred with the
recommendation and will establish a period of reckoning for dissimilar prior
misconduct and other guidance regarding similar prior misconduct. This
action will require approval by the ATF Executive Staff and will not be
completed until after December 31, 2005.




U.S. Department of Justice
                                                                       54
Office of the Inspector General
Evaluation and Inspections Division
      OIG Analysis. The actions planned by the ATF to establish a period of
reckoning for dissimilar prior misconduct and other guidance regarding
similar prior misconduct are responsive to our recommendation. Please
provide a status report and further documentation of the planned corrective
actions by January 31, 2006.

    Recommendation 7: Prohibit the same individual from serving as the
proposing and deciding official for the same misconduct case.

     Status: Recommendation 7 is Resolved – Open.

     Summary of ATF Response. The ATF concurred with the
recommendation and plans to revise ATF Order 1150.4 prohibiting the same
individual from serving as the proposing and deciding official for the same
misconduct case. This action will not be completed until after
December 31, 2005.

     OIG Analysis. The actions planned by the ATF to prohibit the same
individual from serving as the proposing and deciding official for the same
misconduct case are responsive to our recommendation. Please provide a
status report and further documentation of the planned corrective actions
by January 31, 2006.

    Recommendation 8: Establish policies and procedures, including
management reviews, to ensure that discipline imposed is consistently
implemented.

     Status: Recommendation 8 is Resolved – Open.

     Summary of ATF Response. The ATF concurred with the
recommendation and plans to use the standard operating procedures,
checklist, and case file review developed in response to Recommendation 4
to ensure that discipline imposed is consistently implemented.

      OIG Analysis. The actions planned by the ATF to establish standard
operating procedures and a checklist and to conduct a case file review are
responsive to our recommendation. Please provide a copy of the standard
operating procedures, the checklist, and a status report on the case file
review by January 31, 2006.

    Recommendation 9: Establish time standards and performance
measures for the investigation and adjudication phases for the centralized
and decentralized disciplinary processes.



U.S. Department of Justice
                                                                        55
Office of the Inspector General
Evaluation and Inspections Division
     Status: Recommendation 9 is Resolved – Open.

    Summary of ATF Response. The ATF concurred with the
recommendation and plans to establish time standards and performance
measures for the investigation and adjudication phases of the centralized
and decentralized disciplinary processes by December 31, 2005.

      OIG Analysis. The actions planned by the ATF to establish time
standards and performance measures for the investigation and adjudication
phases of the centralized and decentralized disciplinary processes are
responsive to our recommendation. Please provide copies of the time
standards and performance measures for the centralized and decentralized
disciplinary processes by January 31, 2006.




U.S. Department of Justice
                                                                      56
Office of the Inspector General
Evaluation and Inspections Division
